IPO2010E002                      October 27, 2010




           Review of Matters Related
       to the Death of Hospitalman (HN)
         Christopher Purcell, U.S. Navy
IPO2010E002                                   



       Additional Information and Copies

The Department of Defense Office of the Deputy Inspector General for Policy and
Oversight, Assistant Inspector General for Investigative Policy and Oversight prepared
this report. If you have questions or would like to obtain additional copies of the final
report, contact Mr. Scott Russell at (703) 604-8718 (DSN 664-8718).

       Suggestions for Evaluations

To suggest ideas for or to request future evaluations, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-
8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
IPO2010E002






                               LIST OF ACRONYMS

Acronym         Refers to:
BPD             Brunswick Police Department
CA              Convening Authority
CDI             Command Directed Investigation
CID             Criminal Investigation Division
CO              Commanding Officer
DCIO            Defense Criminal Investigative Organization
DoDSER          Department of Defense Suicide Event Report
DoD             Department of Defense
DoD IG          Department of Defense Inspector General
DoN             Department of the Navy
FTO             Field Training Officer
FOIA            Freedom of Information Act
HN              Hospitalman
IG              Inspector General
IO              Investigating Officer
JAG             Judge Advocate General
JAGMAN          Manual of the Judge Advocate General
LOD             Line of Duty Investigation
MA              Master at Arms
MCRT            Major Crimes Response Team
MIDLANT         Navy Region Mid-Atlantic
MILPERSMAN      Military Personnel Manual
NASB            Naval Air Station Brunswick
NCIS            Naval Criminal Investigative Service
NHCNE           Naval Health Clinic New England
NAVPERS         Navy Personnel
NJP             Non-Judicial Punishment
NSF             Naval Security Forces
OAFME           Office of Armed Forces Medical Examiner
OGC             Office of General Counsel
OPNAVINST       Operational Navy Instruction
RLSO            Regional Legal Services Office(r)
SECNAVINST      Secretary of Navy Instruction
SJA             Staff Judge Advocate
                                   INSPECTOR 	GE NERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARM Y NAVY DRI VE
                                                                                 OCT 2 7 2010
                               AR LINGTON , VIRGINIA 22202-4704




MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (MANPOWER AND
                   RESERVE AFFAIRS)
               NAVAL INSPECTOR GENERAL
               COMMANDER, NAVY REGION MID-ATLANTIC
               CI-IlEF, BUREAU OF MEDICINE & SURGERY
               DIRECTOR, NAVAL CRIMINAL INVESTIGATIVE SERVICE

SUBJECT: 	 Review of Matters Related to the Death of Hospital man (HN) Christopher
           Purcell, U,S , Navy (Report No . IP020 10E0 02)

         This final report is provided for your revi ew and additional comment. Management
comments on the draft report were considered in preparing the final report and are addressed in
detail in the final rep0l1. Management comments are also included in the final report as
Appendix C.

         000 Directive 7650.3 requires that all recommendations be resolved promptly. The
management comments provided were responsive to our recommendation. We request YO ll
provide additional comments on ollr recommendation as soon as you complete reporting
add itional investigative activity. Your comments should be submitted electronically to
scott.rllssell@dodig.mil.

       We appreciate the courtesies extended to our stafftlu'oughollt this review. For additional
information on this report, please co ntact Mr. Scott Russell, (703) 604-8718; 664-8718 (DSN).
You may also contact Mr. John Perryman, Director of Oversight, at (703) 604-8765; 664-8765
(DSN).




                                    Randolph R. Stone, SES
                                    Deputy Inspector General
                                     Policy and Oversight

Attaclunent
Final Report IP020 1OE002
IPO2010E002


TABLE OF CONTENTS

I. INTRODUCTION AND SUMMARY........................................................................................................... 1

II. THE INCIDENT.............................................................................................................................................. 2

III. SCOPE ........................................................................................................................................................... 4

IV. FINDINGS AND ANALYSIS ...................................................................................................................... 5

1.          Did DoN officials investigate the incident in accordance with DoD and DoN guidance? …….………5
            a.      Did NCIS investigate the incident in accordance with DoD and DoN guidance? ......................... 5

            b.      Did the Commanding Officer, Naval Health Clinic New England investigate the incident in
                    accordance with DoD and DoN guidance?......................................................................................7

            c.      Did the Commanding Officer, NASB investigate the incident in accordance with DoD and DoN
                    guidance?.........................................................................................................................................12


2.          Did DoN officials determine whether law enforcement training or qualifications were
            factors which contributed to HN Purcell’s death while in custody? ..................................................... 14

3.          Did DoN officials implement adequate corrective measures to prevent future
            occurrences?............................................................................................................................................17

4.          Did DoN officials properly disclose information in response to Mr. Purcell’s Freedom of
            Information Act request? ....................................................................................................................... 20

V. CONCLUSIONS............................................................................................................................................ 24

VI. RECOMMENDATION ............................................................................................................................... 25


VII.        MANAGEMENT COMMENTS AND OUR EVALUATION ........................................................... 25

          APPENDICES ........................................................................................................................................ 27

          Appendix A. Standards Related to the DoN response to HN Purcell’s death ........................................ 29

          Appendix B. Phase I Skills & Phase II Police Officer/Master-at-Arms Sustainment

           Training...................................................................................................................................................49

          Appendix C. Management Comments .................................................................................................... 53

          Appendix D. Report Distribution............................................................................................................. 57
IPO2010E002


IPO2010E002                                                                                                   1


                   REVIEW OF MATTERS RELATED TO THE DEATH OF 

                 HOSPITALMAN (HN) CHRISTOPHER PURCELL, U.S. NAVY 



I.       INTRODUCTION AND SUMMARY
        We initiated this review on March 9, 2009, in response to a request from Representative
Mark Steven Kirk (R – IL) on behalf of the parents of HN Christopher Purcell following his
suicide on January 27, 2008, while in custody of Navy law enforcement officials at Naval Air
Station Brunswick (NASB), Brunswick, ME. Mr. and Mrs. Purcell questioned: (1) no policies or
procedures changed in response to the incident; (2) each of the first responders retained their
rank and still serve in the same capacity they did that evening; (3) the first responders were not
held accountable, nor is the Navy showing accountability, and (4) the Navy closed the case in
September 2008 and “will not tell us anything else.” Representative Kirk wrote to DoD
Legislative Affairs, and they routed the matter to DoD Inspector General (IG) for action.

         In completing our review, we focused on these specific questions:

         		 Did Department of Navy (DoN) officials investigate the incident in accordance
             with DoD and DoN guidance?
         		 Did DoN officials determine whether law enforcement training or qualifications
             were factors that contributed to Purcell’s death while in custody?
         		 Did DoN officials implement adequate corrective measures to prevent future
             occurrences?
         		 Did DoN officials properly disclose information in response to Mr. Purcell’s
             Freedom of Information Act (FOIA) request?
        During our work, we reviewed the facts and circumstances of the incident, and reviewed
the investigations completed by:
             Naval Criminal Investigative Service (NCIS); 

             Commanding Officer (CO), Naval Health Clinic New England (NHCNE), and 

             CO, NASB.


We also interviewed sailors, civilian police officers, NCIS agents and supervisors, the
investigating officers (IOs), and other witnesses.

       We found NCIS concluded the cause of HN Purcell’s death was a gunshot wound to the
chest and the manner of his death was suicide.1 NCIS conducted their investigation in
accordance with the DoD, DoN and NCIS standards.




1
 We identified instances where NCIS agents did not fully comply with NCIS internal investigative procedures.
These deficiencies did not materially impact their overall conclusion, and therefore, are not reflected in this report.
We provided a memorandum documenting these deficiencies to NCIS senior management.
IPO2010E002                                                                                            2

        We found the Line of Duty (LOD)2 IO determined HN Purcell’s death was in the line of
duty. However, the LOD was inadequate because the IO failed to recognize the significance of
the information he collected and how it related to suicidal behavior warning signs. The IO also
did not investigate command actions taken in response to those warnings.

        We determined the CO, NASB responded to HN Purcell’s death by ordering a Command
Directed Investigation (CDI). We determined the CDI IO investigated the complete security
response including pertinent policies, procedures, and training requirements in compliance with
the JAGMAN Instructions. We concurred with the CDI IO’s findings regarding the actions of
the police officers and MAs who were involved in the incident.

       The CDI investigation and our review both determined the NASB training program
adequately trained the responding police officers and the responding officers were qualified to
perform their law enforcement duties in accordance with departmental policies.

        We determined DoN officials implemented corrective measures to prevent recurrences
similar to HN Purcell’s death. The CO, NASB initiated the CDI despite no regulatory
requirement to do so, and he ensured recommendations were implemented. The
recommendations were realistic and based upon DoD and DoN standards.

       We concluded DoN officials disclosed information in response to Mr. Purcell’s FOIA
request; all disclosures made to Mr. Purcell conformed to the Privacy Act and FOIA.

        We recommended the following:

        		 We recommend Department of Navy Bureau of Medicine and Surgery correct the
            deficiencies in the line of duty investigation, including thoroughly documenting and
            supporting findings of facts, investigating the command’s response to suicide warning
            signs displayed by Hospitalman Purcell and apparently recognized by others, and
            making recommendations as originally directed by the convening authority.

       This report sets forth our findings and conclusions based on a preponderance of the
evidence.

II.     THE INCIDENT
        About 9:07 PM, January 27, 2008, a Navy Hospital Corpsman, assigned to Naval Branch
Health Clinic, NASB, Brunswick, ME, contacted the NASB police and reported a possible
suicidal individual at Bachelor Housing, Building 731, Room 9A (Building 731 is a two-story
condominium with 10 units configured to house two sailors per unit.). About a minute later, the
Corpsman called back stating HN Purcell was threatening to harm himself with a weapon.



2
 JAGMAN Instructions 5800.7D, Section 0220, states “A line of duty determination is required whenever an active
duty service member of the Naval service dies, in order to make decisions concerning eligibility and annuity
calculations under the Uniformed Services Survivor Benefit Program.”
IPO2010E002                                                                                                  3

       About 9:10 PM, January 27, 2008, the NASB police dispatched police units. The
dispatcher also notified the NASB Emergency Medical Technician, who responded to the scene.

        The police found the front door to Room 9A open. They entered, and identified
HN Purcell seated at his computer desk. The officers observed several empty and one partially
full alcoholic beverage bottles, an empty handgun case, and an open box of ammunition with
between one and three rounds missing. HN Purcell told the officers he had given the weapon to
a friend. Another police unit comprised of an active duty sailor (Master at Arms (MA)) and a
civilian officer arrived shortly after the first units. The responding sailor recognized the need to
search more thoroughly for the weapon, and asked HN Purcell to accompany him outside while
the other responding officers searched the remaining areas of HN Purcell’s room. Their search
did not find the weapon. During the IO’s CDI, some of the officers stated they performed
“sensory” searches of HN Purcell and did not find a weapon on his person.

        While the sailor and HN Purcell were outside, a second sailor (MA), who was off-duty,
arrived at the scene. He had earlier completed his shift and had turned in his weapon. After
speaking with the initial responding sailor, the second sailor directed him to place HN Purcell in
hand irons. Once confronted, HN Purcell resisted. Approximately five officers, including the
two sailors, subdued HN Purcell and placed him in hand irons.

        Due to the cold temperature, HN Purcell was brought indoors to his kitchen. While there,
the off-duty sailor asked HN Purcell if he wanted anything to drink or if he had to go to the
bathroom. After HN Purcell replied he wanted to use the bathroom, the off-duty sailor directed
an officer remove one of HN Purcell’s hand irons and to accompany HN Purcell to the bathroom.
When HN Purcell requested no one from Security accompany him, the NASB Emergency
Medical Technician volunteered and accompanied HN Purcell into the bathroom. Without the
NASB Emergency Medical Technician‘s knowledge, while standing before the toilet,
HN Purcell removed a handgun (Ruger, .357 magnum caliber) from his person and shot himself
in the chest. HN Purcell was later pronounced dead at the scene.

        NASB dispatch notified the NASB Criminal Investigation Division (CID), and the
Brunswick Police Department (BPD).3 Working concurrently, the CID and BPD, obtained
photographs and began interviewing witnesses. About 10:30 PM, January 27, 2008, NASB
police dispatch notified NCIS. NCIS agents responded to the scene and assumed primary
investigative jurisdiction.

       The Office of the Armed Forces Medical Examiner (OAFME)4 conducted an autopsy on
HN Purcell and determined the cause of death was a gunshot wound to the chest, and the manner
of death was suicide. The NCIS investigation concluded the death was a suicide. NCIS
completed its investigation on September 11, 2008.

3
  There was a Memorandum of Understanding between NASB and BPD, for BPD to respond to NASB during


certain law enforcement matters. 

4
  DoD Directive 6010.16 states OAFME, “An autopsy shall be performed on the remains of any person who dies 

while on active military duty, when necessary to determine the cause and manner of death (such as sudden, 

unexpected death, homicide or suicide), to secure information for completion of military records or to protect the 

welfare of the military community. 

IPO2010E002                                                                              4



        On January 29, 2008, the CO, NHCNE appointed an IO to conduct a LOD investigation
in accordance with JAGMAN Chapter II, “into the circumstances of the death of HN Christopher
Purcell.” The CO, NHCNE instructed the IO to “focus your attention on HN Purcell’s duty
status on 27 January 2008, his recent medical history and treatment, and the events which lead to
HN Purcell’s apprehension by NAS Brunswick Security Personnel on 27 January 2008.” The
CO, NHCNE directed the IO to “report his findings, including personnel contacted, materials
reviewed, summary of findings, and recommended courses of action by 29 February 2008,” and
to provide a “recommendation for a line of duty/misconduct determination.” The IO completed
his LOD on March 17, 2008. He concluded “…HN Purcell’s death was in the Line of Duty and
his death was not due to his own misconduct but was a result of his longstanding mental illness.”

        On January 30, 2008, the CO, NASB, appointed an IO to conduct a CDI “into the facts
and circumstances surrounding the NAS Brunswick Security response at the NASB Bachelor
Housing on the evening of 27 January 2008,” instructing the IO to “[I]nvestigate the complete
security response in the light of the existing pertinent policies, procedures, and training
requirements at the time of this incident.” The IO completed his inquiry on February 29, 2008,
concluding “[T]hrough neglect and culpable inefficiency by NAS Brunswick security personnel,
HN Purcell was able to affect his suicide with a firearm while in their custody.”

III. SCOPE
       Our review focused on whether DoN officials adequately investigated the NASB law
enforcement response to complaints HN Purcell was suicidal and had a weapon, and whether
DoN officials took appropriate actions to correct deficiencies identified in the response.

        We examined whether NCIS thoroughly investigated the incident. We addressed the
adequacy of the LOD investigation, i.e., whether the IO adequately addressed the actions of the
chain of command, co-workers, and medical personnel in responding to HN Purcell’s behavior
prior to the incident. We also examined whether training of the first responders was a
contributing factor, and we looked at whether corrective measures undertaken should prevent
such incidents from occurring again. Finally we considered whether DoN officials properly
responded to Mr. Purcell’s FOIA requests.

       Additionally, the evaluation addressed the adequacy of the CDI, i.e., whether the IO
adequately addressed the actions of the responding NASB law enforcement personnel that led to
HN Purcell’s suicide, to include: whether responsible officials complied with applicable DoD
guidance and DoN regulations regarding first response to crisis incidents (including possible
suicides involving weapons), proper apprehension and restraint, and searches incident to
apprehension or detention.

        We interviewed 49 witnesses, including: NCIS special agents and supervisors; NASB
public safety managers; numerous NASB police officers, the two active duty sailors (MA’s), the
two IOs; the CO, NASB; the supporting Navy Judge Advocates; Navy Region Mid-Atlantic
(MIDLANT) security officials; Mr. and Mrs. Purcell, and other witnesses. In addition, we
reviewed the NCIS report of investigation, the command directed investigation of the law
IPO2010E002                                                                                                   5

enforcement response, the line-of-duty investigation and documents associated therewith, as well
as relevant e-mail messages and internal documents within the chain of command and similar
communications within the DoN.

       We reviewed the policies and standards to determine whether responsible Navy officials
complied therewith, and whether any systemic issues contributed to the incident.

IV. FINDINGS AND ANALYSIS
1. Did DoN officials investigate the incident in accordance with DoD and DoN
guidance?5

    a. Did NCIS investigate the incident in accordance with DoD and DoN
guidance?
        NCIS determined HN Purcell’s death was a suicide. We examined the NCIS Report of
Investigation, analyzed it against the regulatory standards and agreed that NCIS properly
concluded HN Purcell’s death was a suicide. There was no regulatory requirement for NCIS to
investigate the actions of the responding police officers. We identified some administrative and
investigative deficiencies and determined the deficiencies did not impact NCIS’ investigative
conclusion. We did not address the deficiencies in our report, but we detailed them in a
memorandum to HQ, NCIS recommending reinforcement of compliance with NCIS internal
investigative standards.

Standards

        There are three standards which dictate the conduct of NCIS criminal investigations.
They include: Department of Defense Instruction (DoDI) 5505.10, “Investigation of Noncombat
Deaths of Active Duty Members of the Armed Forces,” dated January 31, 1996; Secretary of the
Navy Instruction (SECNAVINST) 5430.107, “Mission and Functions of the Naval Criminal
Investigative Service,” dated December 28, 2005; and Naval Criminal Investigative Service
(NCIS) 1, “Administrative” and NCIS 3, “Criminal Investigations.” (See Appendix A).




5
  Our evaluation of DoN’s response to the HN Purcell incident included the review of three separate and distinct
investigations. Per policy, DoN initiated two investigations. The NCIS investigation examined HN Purcell’s death
per DoD Directive 5505.10 which states, “All noncombat deaths of members of the Armed Forces on active duty,
not medically determined to be from natural causes, shall be investigated as potential homicides until evidence
establishes otherwise.” The second investigation, previously identified as the LOD investigation is required per
JAGMAN Instructions 5800.7D, Section 0220. Though not required, DoN initiated a third investigation, previously
identified as the CDI, to, “Investigate the complete security response in the light of the existing pertinent policies,
procedures, and training requirements at the time of this incident.”
IPO2010E002                                                                                       6


Facts

        Since NASB was under concurrent Federal and State jurisdiction, the NASB police
notified the Brunswick Police Department (BPD) of HN Purcell’s death, and they responded.
BPD notified the State Medical Examiner and State Police of a death in police custody. The
death was also reported to NCIS. At NCIS’ request and with BPD’s agreement, NCIS assumed
primary jurisdiction for the incident. As such, the State Police did not respond.

        The initial NCIS response came from Portsmouth, NH. While waiting for NCIS, BPD,
with the assistance of NASB Police CID, interviewed and obtained statements from military and
civilian witnesses. When NCIS arrived, they were given those statements. NCIS initiated a
death investigation on January 28, 2008. The responding NCIS agents stated it took about
2 hours to get to NASB. Both agents indicated the incident was reported to them as a suicide.
While responding they alerted the NCIS Northeast Major Crimes Response Team (MCRT) and
briefed NCIS supervisors of preliminary information provided about the incident. The MCRT
consisting of agents from New London, CT and Newport, RI, arrived the morning of January 28,
2008, and processed the scene. The afternoon of January 28, 2008, a NCIS Forensic Consultant
(from HQ, NCIS) processed the remains for physical evidence. On January 29, 2008, the Office
of the Armed Forces Medical Examiner (OAFME), Rockville, MD conducted an autopsy.
OAFME determined the cause of death was a self-inflicted gunshot wound to the chest, and the
manner of death was suicide. NCIS interviewed all responding police officers and witnesses,
confirmed HN Purcell purchased a gun from a local gun shop on January 17, 2008, and collected
items of evidence later examined by the U.S. Army Criminal Investigation Laboratory, Fort
Gillem, GA. Forensic tests concluded the fatal injury came from the gun HN Purcell purchased.
Following a Death Review Panel on September 4, 2008, and a Death Review Board on
September 10, 2008, the NCIS investigation was closed September 11, 2008. They concluded
HN Purcell committed suicide.

        We examined the NCIS Report of Investigation, analyzed it against the regulatory
standards and determined NCIS properly concluded HN Purcell’s death was a suicide. We
identified some procedural deficiencies; however, they did not impact their investigative
conclusion.6

Discussion

        DoDI 5505.10, “Investigation of Noncombat Deaths of Active Duty Members of the
Armed Forces,” requires deaths to be investigated as potential homicides until evidence
establishes otherwise. Additionally, it requires each Defense Criminal Investigative
Organization to provide military authorities with all information necessary to make command
determinations. SECNAVINST 5430.107, “Mission and Functions of the Naval Criminal
Investigative Service,” mandates NCIS investigates any non-combat death, on or off naval
installations, facilities, vessels, or aircraft, where the cause of death cannot be medically
attributable to disease or natural causes until criminal causality can be reasonably excluded.
NCIS 3, Chapter 30-13 directs NCIS to investigate all suicides by conducting a thorough and

6
 We provided a memorandum to HQ, NCIS identifying the deficiencies, and we recommended reinforcement of
compliance with NCIS internal investigative standards.
IPO2010E002                                                                                           7

complete investigation to ensure potential homicides are not “masqueraded as a suicide.” We
determined NCIS appropriately concluded HN Purcell’s death was a suicide. NCIS did not
investigate potential malfeasance. On January 29, 2008, responding agents were directed by
NCIS headquarters,
        …the principal purpose of the NCIS investigation is not to document the errors made by base
        security so that administrative action can be taken against them. Although Command may use
        documentation from the NCIS Death investigation for that purpose, that would be their
        decision. Again, NCIS [is] not investigating malfeasance of base security.

        On interview the responding agents, supervisors and NCIS headquarters senior managers,
using their judgment, decided to limit the scope of their investigation to the suicide. We agree
with their conclusion HN Purcell’s cause of death was a gunshot wound to the chest, and the
manner of death was suicide. Though they did not determine the origin of the weapon in their
final report, they surmised HN Purcell possessed the gun during the entire incident. Regardless
of whether the gun had been concealed on his person or was secreted in the lavatory or
elsewhere, NCIS agents conclusively determined the fatal wound was self-inflicted.

    b. Did the Commanding Officer, Naval Health Clinic New England
investigate the incident in accordance with DoD and DoN guidance?
        We found although the IO arrived at the proper determination HN Purcell’s death was in
the line of duty, his command investigation was inadequate. The IO did not pursue information
which was consistent with suicidal behavior warning signs, and he failed to investigate command
actions in response to those warnings. The IO documented in his report these behavioral changes
as early as 3 months before HN Purcell’s death; however, we found he erred when he opined
there was no concrete warning or indication that he would take his own life up until the evening
of January 27, 2008. Additionally, he did not conduct thorough interviews to obtain details
leading up to HN Purcell’s death, and he did not properly document information he obtained
during those interviews. Further, the CO, NHCNE and the CO, Navy Medicine East failed to
comply with the JAGMAN when they endorsed the IO’s inadequate investigation.

Standards

JAG Instruction 5800.7D, “Manual of the Judge Advocate General,” (JAGMAN) dated June 20,
2007, provides guidance regarding the completion of required line-of-duty death investigations.
(See Appendix A).

Facts

        On January 29, 2008, the CO, NHCNE appointed the IO, to conduct a line of duty death
investigation in accordance with JAGMAN Chapter II, “into the circumstances of the death of
HN Christopher Purcell.” The CO, NHCNE instructed the IO to “focus your attention on
HN Purcell’s duty status on 27 January 2008, his recent medical history and treatment, and the
events which lead to HN Purcell’s apprehension by NAS Brunswick Security Personnel on
27 January 2008.”
IPO2010E002                                                                                            8

       The CO, NHCNE directed the IO to “report his findings, including personnel contacted,
materials reviewed, summary of findings, and recommended courses of action by 29 February
2008,” and to provide a “recommendation for a line of duty/misconduct determination.” The IO
completed his inquiry on March 17, 2008. He concluded “. . . HN Purcell’s death was in the
Line of Duty and that his death was not due to his own misconduct but was a result of his
longstanding mental illness.”

        The IO’s final report contained 22 findings of fact. Per the JAGMAN, each finding must
be supported by fact, recorded separately with an enclosure supporting that finding. The IO
based his findings on supportable documents which included the NCIS investigation,
HN Purcell’s medical records, completion of the Department of Defense Suicide Event Report
(DoDSER) and other miscellaneous documents. We reviewed the IO’s findings of fact in
relation to the enclosures he cited, and determined the cited enclosures did not support his
findings of fact. On interview, the IO agreed his report contained administrative errors.

       The IO did not make recommendations as the CO, NHCNE directed. He concluded his
command investigation with only findings of fact and opinions. The IO admitted he failed to
make recommendations. On interview, the IO stated,
       You know, I feel bad enough thinking two years later, I should have made some
       recommendations. Oh God, I didn’t know I was supposed to make recommendations. Okay. I
       don’t remember, you know, if that was part of what I was supposed to do. If I’m supposed to
       do it then I clearly missed the boat on this one. It’s just one of those situations that in
       retrospect, there are a lot of recommendations we could have made. We could have done more
       training, you know, locally here.

        The IO explained this was the first and only command investigation he conducted, and he
was unfamiliar with JAGMAN requirements. Upon his appointment, he received the JAGMAN
Instruction Handbook which he used to assist him.

        The IO admitted there was information he gathered during his investigation which he
failed to document in his report. The IO told us he consulted with a Navy medical doctor who
reviewed HN Purcell’s medical records, the command interview forms, and medical history
including HN Purcell’s treatment for mental illness as a Navy dependent child and while on
active duty and his prescribed medications. The doctor opined HN Purcell suffered from a
longstanding mental illness. The IO admitted he based his opinion on that of the doctor. The IO
did not document the coordination or attribute that information in his report. He admitted,
       I think that my error in a lot of things should have been documented obviously to those notes
       because it was already done. So, again, you know, the issue here, I could have done things
       clearly better as far as how to do this report. Clearly, there’s no dispute on that.

Discussion

        The IO failed to comply with JAGMAN instructions in completing the LOD
investigation. We found the following deficiencies:
IPO2010E002                                                                                  9

Indicators of suicidal behavior and suicide risk. The IO reported there was no concrete
warning or indications HN Purcell was suicidal until the day he died. The only suicidal behavior
warning sign the IO documented as a finding of fact was “HN Purcell purchased a handgun 10
days prior to his death.” Our review of the IO’s report revealed the following information:

       		 According to a co-worker, HN Purcell “showed a lot of depressive signs”; “spent a lot
           of time listening to music about suicide for hours on end”; “wasn’t sleeping at night
           and when he was sleeping, it was restless”; “He was giving away some personal
           items”; “sold his ‘baby’ – motorcycle, claiming he needed money”; “stated he was
           looking forward to the day his eyes won’t open.”
       		 A friend spent an evening with HN Purcell and found him extra quiet and acting odd.
           When leaving, HN Purcell gave friend a big hug which was odd as it was a long
           embrace and the friend and HN Purcell had never hugged before.
       		 HN Purcell’s personality changed around October 2007. He was moved from the
           Immunizations clinic to the Family Practice clinic and was angry over the move. He
           always wanted to know what was wrong with him and had low self-esteem. He
           always drank alcohol but after his 21st birthday, HN Purcell wasn’t out to get drunk,
           party and be happy, he was drinking to get rid of some pain. He also began listening
           to very dark music.
       		 HN Purcell reportedly felt his visits to Substance Abuse and Rehabilitation Program
           (SARP) made him “feel like a dirt bag.”
       		 When HN Purcell began drinking he would drink “until he passed out.”
       		 When HN Purcell returned from Thanksgiving, he told a co-worker he had some
           panic attacks on leave and said he was going to get some help for it.
       		 HN Purcell asked a co-worker if he had ever thought about suicide.
       		 A supervisor of HN Purcell was informed by a co-worker who expressed concern that
           HN Purcell was selling off his possessions.
       		 A friend of HN Purcell noted a change in HN Purcell’s behavior about 3 months
           before his death. HN Purcell was reportedly kicked out of a club for punching a
           statue, and he (Purcell) found this entertaining. HN Purcell told this friend he was
           doing self-destructive things to see if he would get into trouble, like driving his car to
           the clinic while drunk. The friend reported to HN Purcell’s supervisor on two
           separate occasions that HN Purcell was selling off his possessions and was drinking
           and sleeping the entire time he was on leave. The supervisor told the friend, “I know
           what it looks like” but took no action.
       		 On November 13, 2007, during initial SARP, HN Purcell stated his work
           performance had suffered due to alcohol use with five drinking binges in the last two
           weeks.
       		 HN Purcell expressed strained relationships with friends and a lack of trust and
           sincerity in relationships; expressed trouble sleeping and a family history of
           alcoholism and mental illness.
IPO2010E002                                                                                                       10

We found the information consistent with the warning signs illustrated in the suicide prevention
acrostic (ISPATHWARM) at the Navy’s Suicide Prevention Website7:

      I - Ideation (thoughts of suicide expressed, threatened, written); 

      S - Substance Abuse (increased or excessive alcohol or drug abuse); 

      P - Purposelessness (seeing no reason for living or having no sense of meaning or purpose in life);


      A - Anxiety (feeling anxious, agitated, frequent nightmares, unable to sleep or sleeping all the time); 

      T - Trapped (feeling trapped, like there is no way out);


      H - Hopelessness (feeling hopeless about self, other, the future);


      W - Withdrawal (withdrawing from family, friends, usual activities, society); 

      A - Anger (feeling rage or uncontrolled anger, seeking revenge for perceived wrongs);


      R - Recklessness (acting without regard for consequences, excessively risky behavior);


      M - Mood Changes (experiencing dramatic changes in mood).



The IO failed to recognize the information he had gathered as consistent with suicidal behavior
warning signs, and he failed to investigate whether command personnel undertook appropriate
suicide prevention measures. When challenged, the IO stated,
          Clearly, now I’m thinking back here, knowing that, yes, I mean a lot of these things are risk
          factors for suicide. It’s not concrete, but there’s still evidence that says -- was it potentially
          possible for us to pick up on issues with this guy. And the answer -- I guess the answer is yes.

Interviews not properly documented. The final paragraph in the IO’s preliminary statement
reflected he consulted 16 named individuals who had information regarding his investigation.
We were unable to identify by name throughout his report what information each of these
individuals provided. The IO told us some of the individuals just provided “interpretive” help or
just “contributed“ to his report, and he destroyed any notes and/or information he obtained from
those interviews. The IO did not obtain any written testimony, and annotated nine of the
interviews mentioned above using a DoDSER command interview form. JAGMAN Section
0214, paragraph (d) states,
          Ordinarily, witnesses should provide statements in informal interviews. They may be required,
          however, to provide recorded testimony under oath. Probing questions as to ‘who,’ ‘what,’
          ‘where,’ ‘when,’ ‘how,’ and ‘why’ should be pursued. To avoid irrelevant material or omission
          of important facts, an investigator may assist a witness in preparing a written statement. When
          an investigator takes an oral statement, it should be reduced to writing and signed by the
          witness or certified by the investigator to be an accurate summary or verbatim transcript. Care
          should be taken to ensure that any statement is phrased in the actual language of the witness.

        The IO stated he filled out the command interview forms, not the individuals themselves.
The IO was unaware of JAGMAN requirements regarding witness interviews and did not know
whether he could identify those he interviewed, so he did not attribute the information to anyone.
The IO stated he assumed the command interview forms provided a sufficient means to
document his interviews. When presented with the JAGMAN requirements, the IO admitted he
didn’t know better at the time but now, in retrospect, he would have obtained and documented
better statements. Additionally, he did not document in his LOD information provided by
witnesses as findings of fact.



7
    http://www.npc.navy.mil/CommandSupport/SuicidePrevention/HowtoHelp/warning_signs.htm
IPO2010E002                                                                                            11

Opinions not supported by findings of fact. The IO reported HN Purcell had a “longstanding
mental illness.” His opinion was not supported by findings of fact. The IO coordinated with a
medical doctor who reviewed HN Purcell’s medical history. The medical doctor told the IO HN
Purcell had a “longstanding mental illness.” The JAGMAN requires opinions be “reasonable
evaluations, inferences, or conclusions based on the facts found. Each opinion must cite the
findings of fact upon which it was based.” The IO failed to document the information the doctor
provided as a finding of fact.

        Additionally, the IO did not provide a history of medications prescribed for HN Purcell.
A complete history of HN Purcell’s prescription medication should have been documented;
especially given the IO’s finding in his LOD that HN Purcell had a history of mental illness
before entering active duty. Coupled with the information the IO gathered during the course of
his investigation, this information would have provided additional substantiating evidence of
HN Purcell’s mental illness history, which the IO opined was the contributing factor in his death.

Failure to make recommendations. The appointment letter directed the IO to make
recommendations; however, his LOD investigation concluded with only findings of fact and
opinions. The IO could not recall whether recommendations were required, but admitted there
were several recommendations he could have made but he failed to do so. The IO stated, “I wish
I would have done something different as far as the recommendation. What should I know today
that my boss didn’t know so we can prevent something like this potentially from happening
again.”

Insufficient command endorsements and review. The IO’s LOD investigation contained
endorsements of the CO, NHCNE and CO, Navy Medicine East. Neither endorser detected
deficiencies in the LOD investigation or the IO’s failure to provide recommendations. Both
endorsements concurred with the IO’s line of duty determination but failed to address whether he
complied with the remaining directives assigned in his appointment orders.

      We noted the Convening Authority (CA), in this instance CO, Naval Health Clinic New
England, did not assign a reviewer. Per the JAGMAN, a reviewer can provide their own
recommendations. Section 0238 of the JAGMAN states,
       To enhance the investigation process, prior to taking action on an investigative report which
       calls into question the propriety of a deceased individual’s conduct, including all apparent
       suicide cases, the Convening Authority (CA) may cause the report to be reviewed by an
       individual not previously connected with the investigation process and outside the CA’s
       immediate chain-of command.

The JAGMAN explains, if the CA selects a reviewer, the reviewer’s responsibilities include “to
critically analyze the salient circumstances surrounding the death as documented in the report so
if the reviewer believes comments on the thoroughness of the investigation or the accuracy of its
findings is warranted, then such comments shall be provided in writing to the CA.” The CA
should have assigned a reviewer for the IO’s LOD investigation based on the following rationale:

       		 The contentious events of HN Purcell’s suicide while in the custody of NASB Law
           enforcement.
IPO2010E002                                                                                12


        		 Historically, within DoD, suicide (as a manner of death) raises questions on what
            measures were in place to prevent the death.
        		 The IO’s appointment orders directed an investigation not only into a line of duty
            determination but also into the events leading to HN Purcell’s apprehension.
        		 The JAGMAN documents that commanders take “Special Considerations” for death
            investigations and specifically suicides, inferring the need for DoN officials to
            investigate such incidents to the fullest extent possible.
        A reviewer could have identified the significant deficiencies in the IO’s LOD
investigation and provoked a re-investigation. Further, a re-investigation could have resulted in
recommendations.

    c. Did the Commanding Officer, NASB investigate the incident in
accordance with DoD and DoN guidance?
        We determined the CO, NASB properly appointed the IO to investigate the security
response. The IO adequately investigated the complete security response to include policies,
procedures, and training requirements. Although the command investigation was adequate, we
identified two administrative deficiencies which did not impact the investigation’s conclusions.
Although we did not address them in our report, we detailed them in a memorandum to the
CO, NASB recommending he reinforce compliance with JAGMAN procedural guidance.

Standards

        The standard dictating the completion of command-directed investigations is JAG
Instruction 5800.7D, “Manual of the Judge Advocate General,” (JAGMAN), dated June 20,
2007. (See Appendix A).

Facts

        On January 30, 2008, the CO, NASB, appointed an IO, to conduct a command
investigation “into the facts and circumstances surrounding the NASB Brunswick Security
response at the NASB Bachelor Housing on the evening of 27 January 2008,” instructing the IO
to “[I]nvestigate the complete security response in the light of the existing pertinent policies,
procedures, and training requirements at the time of this incident.”

        In conducting the investigation, the IO interviewed the responding police officers and
HN Purcell’s co-workers, to include those who responded to the scene. Sworn written
statements documented the interviews. The IO obtained the training records for those police
officers and determined they received the necessary training to resolve the incident.
Additionally, the IO reviewed local, regional, and DoN policy; his investigation included the
citation for each policy pertaining to his findings of fact.

       The final report contained 405 findings of fact. Per the JAGMAN, each finding must be
supported by fact, recorded separately with the enclosure listed supporting that finding. He did
that. Based on his findings, the IO outlined 53 opinions. The IO recommended 16 actions based
IPO2010E002                                                                                13

on his investigation. These actions ranged from disciplinary action against the responding police
officers and their immediate supervisors to using this incident as an example within DoN to
prevent reoccurrence. While the specific disciplinary actions the IO recommended did not occur,
each of the responding officers and their immediate supervisors did receive disciplinary action.
We address these actions later.

       Through recommendations from his higher headquarters, MIDLANT, the CO, NASB
endorsed the selection of the IO, in part, because of the IO’s extensive legal experience.
MIDLANT officials told us because of the potential impact the incident would have on security
procedures on DoN installations, the IO selected was best qualified.

        The Region Legal Servicing Officer (RLSO), MIDLANT, stated he and two other
MIDLANT officers collaborated to identify a disinterested and experienced IO with knowledge
in the “security area,” and a “good knowledge of what the rules were so he could make an
opinion as to whether or not the rules were actually followed.” Someone suggested the IO.

       The IO completed his investigation in the 30 days allotted. The IO stated he neither
received guidance from the CO, NASB, regarding his investigation nor was he influenced
regarding any of his findings or decisions by upper echelons at MIDLANT and DoN levels. The
IO provided the completed report to the CO, NASB and the MIDLANT RLSO.

        Although not required and while the IO did not obtain a legal review of his completed
investigation, the MIDLANT RLSO reviewed it. She told us it was consistent with JAGMAN
Chapter II, it “answered the assignment,” and provided recommendations as directed. The
RLSO also stated, “it was very well done.”

        The IO conducted interviews and collected documents in accordance with the JAGMAN.
He interviewed the responding police officers, HN Purcell’s co-workers and obtained the
training records of the responding officers. The IO obtained written sworn statements from
them, all of which contained specific details of the incident, as recommended by the JAGMAN.

        Our review of the statements showed they were thorough as the IO asked probing
questions as to who, what, where, when, how, and why, IAW JAGMAN instructions. The IO
certified the training records as an accurate and true depiction of their originals, as required in
the JAGMAN regarding collection of documentary evidence. We noted the IO collected the
most up-to-date training information of the responding officers. We found this was a satisfactory
method in order for the IO to opine on the adequacy of the NASB Security Department training
program. After completing his interviews and collecting the necessary documents, the IO
concluded, “[T]hrough neglect and culpable inefficiency by NAS Brunswick security personnel,
HN Purcell was able to affect his suicide with a firearm while in their custody.”
IPO2010E002                                                                                14


Discussion

        We determined the CO, NASB, responded to the incident in accordance with DoD and
DoN policies. Despite no requirement set forth I n the JAGMAN, the CO, NASB directed a
command investigation. He reasoned deficiencies occurred on January 27, 2008, which required
further examination. According to the JAGMAN, there are three types of administrative
investigations – command, litigation, and courts and boards of inquiry. The JAGMAN provides
several examples of reasons command administrative investigations are initiated. We noted none
of the examples cited, mirrored or were similar to this incident. Furthermore, while the
instruction indicated the CO is the decision authority for initiation of command investigations,
the JAGMAN did not provide a requirement for the CO to initiate a command investigation into
this incident. As it pertained to this incident, the only requirement set forth was a “line of duty
death investigation,” which we learned the Navy Bureau of Medicine and Surgery conducted.

        Our review of the IO’s investigation determined the findings of fact were as specific as
possible as to times, places, persons, and events. He also documented each fact as a separate
finding, and cited the enclosure supporting each finding, in accordance with JAGMAN
instructions. Using his findings of fact, the IO documented opinions which we found were
“reasonable evaluations, inferences, or conclusions based on the facts found.” His opinions cited
the findings of fact upon which they were based. We determined the IO’s recommendations
were “dependent on the nature of the facts found and opinions expressed.” Our review of the
IO’s investigation determined he adequately developed his findings of facts, opinions, and
recommendations. We found the IO’s actions realistic and meeting the needs of the CO, NASB
as addressed in the appointment orders.

2. Did DoN officials determine whether law enforcement training or
qualifications were factors which contributed to HN Purcell’s death while in
custody?
        DoN officials evaluated whether law enforcement training or qualifications contributed to
Purcell’s death. The IO’s CDI investigation and our review determined the NASB training
program provided the necessary training to the responding police officers and inadequate training
did not contribute to HN Purcell’s death.

Standards

        There are four standards which dictate the training and qualifications for Navy law
enforcement personnel. The standards include: DoDI 5210.90, “Minimum Training,
Certification, and Physical Fitness Standards for Civilian Police and Security Guards (CP/SGs)
in the Department of Defense,” dated July 9, 2007; OPNAVINST 5530.14D, “Navy Physical
Security and Law Enforcement Manual,” dated January 30, 2007; OPNAV 5580.1A Navy Law
Enforcement Manual, July 26, 2000; and Naval Air Station Brunswick (NASB) Standard
Operating Procedures. (See Appendix A).
IPO2010E002                                                                                               15


Facts

       In accordance with his appointment orders, the IO examined training at the time of this
incident.

        The IO reviewed the training folders of each responding officer. During his CDI, the IO
specifically examined training the responding officers received in the following areas:

                    Phase I Training
                    Phase II Training
                    Search and Seizure
                    Apprehension versus Arrest
                    Suicide Prevention/Crisis Intervention
                    Pedestrian Searches
                    Apprehension, Restraint and Release of Suspects/Detention of Apprehended
                     Personnel/Transporting Prisoners/Prisoner Handling
                    Use of Deadly Force
                    Interview and Interrogation Techniques

       The IO interviewed the responding officers and obtained sworn testimony from them
about their training and level of experience. Once the IO gathered the appropriate documents
and reviewed the officers’ testimonies, he concluded, “[A]ll NAS Brunswick Security personnel
involved in this incident had received the proper training needed to adequately diffuse and
resolve this incident safely.” The IO also concluded, “[A]ll NAS Brunswick Security Personnel
were properly qualified for their respective post assignments.”

        We also reviewed the training jackets of the NASB police officers. Every police officer
possessed a training jacket as required. We found the training jackets well-maintained and easy
to assess. Each jacket contained a chronological tabulated sheet containing the type of training
provided, when the training was provided, who provided the training and an acknowledgement
by the police officer they had received the training.

        Our review of MIDLANT’s inspections of NASB showed NASB complied with DoN
standards regarding frequency and conduct of training. We also reviewed monthly NASB
internal inspections conducted by the various Field Training Officers (FTOs). We found the
inspections detailed, specifically identifying the topic trained on, date of the training, who
provided the training, and who attended the training. We noted training was current and
complied with DoD and DoN guidance and training was given by qualified instructors. On
interview, the NASB Security Director told us,
        When I came here [January 2000] there was none [training program]. I started to build a
        department and get away from primarily all physical security guards and into the police world.
        They’re more functional. We have followed the SECNAV and OPNAV training requirements
        ever since. I have in -- after 9/11 we sent two MAs to become master trainers, the Navy school,
        and I’ve had master trainers ever since then.
IPO2010E002                                                                                 16

        We confirmed the NASB police officers completed Phase I training requirements; they
attended local schooling, regional police academies, or MA School as required. We determined
the areas the IO identified above dealt specifically with the deficiencies he noted as occurring the
night of January 27, 2008. According to policy, police officers/MAs receive training on these
tasks during Phase I, Phase II, during in-service training, or a combination thereof. Once a
police officer/MA completes their respective Phase I training, they are eligible to perform law
enforcement duties.

       DoN policy requires police officers/MA’s maintain proficiency in many of the law
enforcement training tasks they received during Phase I training. They accomplish this by
mandating police officers/MAs receive sustainment or Phase II training. According to DoN and
subordinate command policies, police officers/MAs receive Phase II training annually.

         According to NASB SOP, Phase II training encompasses, “the minimum maintenance of
training standards essential to enable security force personnel to perform their duties; and Phase
II training will be conducted annually for all security force personnel. Phase II training is
mandatory and personnel will not be authorized to perform law enforcement duties without its
satisfactory completion.”

       While DoN policy requires Phase II training tasks during a 1-year period, each task
requires police officers/MAs to receive that training either annually, semi-annually, quarterly,
monthly, during daily guard mount, or on an as needed basis.

        The IO reviewed the responding officers’ training records and determined they completed
the required training in accordance with DoN policy. Our review confirmed the IO’s findings.

        The IO also interviewed the responding officers who stated they received training
specific to the HN Purcell incident. All of the responding officers told us training was conducted
and annotated in their training files. Additionally, when we asked the officers to verbally
articulate some of the aforementioned training areas the IO identified, they adequately provided
step by step descriptions of actions necessary to complete the task.

Discussion

        We determined that DoN officials evaluated the NASB Security Department training
program and determined law enforcement training and qualifications were not factors
contributing to HN Purcell’s death. We interviewed the IO, the responding police officers, and
the supervisors responsible for the overall NASB law enforcement training program. We also
interviewed MIDLANT officials. We reviewed the IO’s CDI investigation and NASB police
officer training jackets. We gathered the applicable DoD and DoN policy guidance and analyzed
it against the documents we collected.

        We determined the NASB Security Directorate complied with DoD and DoN regulatory
requirements in providing the mandatory police officer training to their respective police
officers. We found the police officer training jackets reflected the training received, and the
NASB FTO program adhered to policy regarding the conduct and frequency of training.
IPO2010E002                                                                                   17

        We examined the IO’s efforts and found his methodology of reviewing the police officer
training records and conducting interviews was sound. We agreed with the IO’s command
investigation findings; the responding police officers were trained and qualified to perform their
duties.

3. Did DoN officials implement adequate corrective measures to prevent
future occurrences?
       DoN officials implemented corrective measures to prevent recurrences similar to HN
Purcell’s death. The CO, NASB initiated a command administrative investigation despite no
regulatory requirement to do so, and he ensured the IO’s recommendations were implemented.
The IO’s recommendations were based on DoD and DoN standards, and detailed corrective
measures to prevent similar incidents.

Standards

       There are three standards applicable to this question including: OPNAVINST 5530.14D,
“Navy Physical Security and Law Enforcement Manual,” dated January 30, 2007; Commander
Navy Region Mid-Atlantic (COMNAVREG MIDLANT) 5500.2, “Regional Physical Security
Standard Operating Procedures,” undated; and NASB Standard Operating Procedures (SOP),
2005. (See Appendix A).

Facts

        On January 27, 2008, HN Purcell committed suicide using a weapon he purchased in
November 2007. HN Purcell was placed in hand restraints by NASB law enforcement; however,
a law enforcement officer later released him from those restraints which enabled him to commit
suicide while in police custody.

       The IO was required to look at policies and procedures in place when the incident
occurred and to investigate the “complete security response” in light of those policies and
procedures.

        The CO, NASB immediately removed the responding officers from their law
enforcement duties and placed them on administrative duty pending completion of the
investigation.

        On February 29, 2008, the IO completed his CDI investigation, making 16
recommendations. On March 20, 2008, the CO, NASB, endorsed the IO’s CDI investigation,
concurring with his recommendations. The CO, NASB lacked the authority to take disciplinary
action against the DoN civilian police officers. Therefore, he did not endorse those
recommendations, but deferred to the Director of Public Safety who did. During the process of
completing the IO’s recommendations, the CO, NASB transferred under a routine reassignment
action. The incoming CO, NASB endorsed the IO’s findings and continued to implement the
recommendations. We compiled those recommendations into four distinct areas:
IPO2010E002                                                                                                        18


           		 Recommendation to take disciplinary action against the responding police officers
               and their supervisors.
           		 Recommendation that NASB conduct a safety stand-down to review all regulatory
               guidance and SOP’s relevant to apprehension, search, restraint, transport of suspects
               and Suicide Awareness.
            Recommendation that current and future police officers attend the 14-week police
               academy.
            Recommendation that higher headquarters conduct a training audit of the NASB
               Security Office’s training program.

Disciplinary action against responding police officers and supervisors. The CO, NASB
initiated court-martial proceedings against the two active duty (sailors) MAs. During the initial
proceedings, one of the sailors accepted a pre-trial agreement; however, during his Article 39a,
Uniform Code of Military Justice “providency” hearing, the sailor could not explain to the
presiding judge how he was derelict in his duties or how he had committed a crime. After
hearing the sailor’s testimony, the judge informed the court he saw no crime in the sailor’s
actions. The NASB Staff Judge Advocate (SJA) told us they appeared before the, “. . . Chief
Judge of our military judiciary” and the judge said “. . . that’s great but I don’t see any
criminality to what occurred here. . . .” Following the Article 39a appearance, the CO, NASB
administered non-judicial punishment (NJP) to both sailors. On interview, the CO, NASB told
us,
            . . . I think that was the turning point where I started to go, ‘All right, so here I’ve got a judge
           supposedly an expert in his field who says there was no criminal neglect in what happened; it
           was tragic. There was dereliction but there wasn’t any criminal neglect and didn’t think it
           ought to be in the court martial realm.’ And if it stayed in the court martial realm he probably
           would find him innocent. And that outcome would not be acceptable to me.

       The NASB RLSO explained a portion of the NJP, stating “ . . . they had a retraining
period. Both sailors lost all of their administrative qualifications. They both started from ground
zero over again.” Both sailors were also required to complete reviews of the NASB training
program and the MA training school at Lackland AFB. The NASB RLSO stated the sailors
developed local training scenarios specific to volatile incidents, such as the one they experienced
with HN Purcell.

           On interview the NASB Security Director confirmed the NASB SJA’s comments, stating,
           He [one of the active duty sailors] was relieved of his duties as watch commander right after the
           incident occurred as was the second sailor, and after their captain’s mast,8 they were both put
           back on the bottom of the pile and they had to completely redo the whole program. The
           Captain was insistent and I agreed that they not just gun deck it, you know, don’t just mark
           them off because they know all the answers. They were forced to do each and everything in the
           JQR [Job Qualification Requirements] one by one and be grilled and tested by my board. It
           took them quite a while to get through the JQRs.




8
    Captain’s mast is a colloquial Navy term for the administering of NJP to sailors or U.S. Marine Corps personnel.
IPO2010E002                                                                                              19

        We reviewed the NASB Security Department’s SOP and noted changes were made to the
standards in the newest version of the SOP dated August 2008. We noted these changes updated
the training to include more hands-on training. The NASB Security Director stated,
       They [the two sailors] did, they absolutely did that. We’ve incorporated it into their phase II
       training. They did a really good job. They recommended some changes to the SOP’s, and
       we’ve made those.

        Of the six responding DoN civilian police officers, three received suspensions without
pay, ranging from 2 to 14 days. Two officers resigned and/or retired before disciplinary action
was taken. The police officer who departed the scene before HN Purcell was placed in restraints
and prior to his death received no punishment. The NASB Security Director and his deputy
received suspensions without pay, 14 days and 10 days respectively. We noted the
recommendations to take disciplinary action against the police officers and supervisors were
timely.

Safety stand-down to review relevant regulatory guidance and SOPs. The CO, NASB
immediately directed the NASB Security Director to conduct a safety stand-down. The CO,
NASB stated, “ . . . immediately, as soon as possible, sit down the precinct and review whatever
procedures were messed up that resulted in this. And to reemphasize correct procedures and
sticking to it.”

        The NASB Security Director told us they conducted the safety stand-down in February
2008, for the 47 assigned personnel. He said the stand-down covered: Apprehension/Detention
of Suspects; Restraint/Searching/Release of Suspects, and Transporting Suspects. Additionally,
they conducted several drill scenarios on the handling of suicide calls. The Chaplain’s Office,
NCIS, CID, and the Fleet and Family Support Center provided training on the handling of
similar situations. We reviewed the training records the IO collected during the course of his
CDI and confirmed the training was conducted. Between August 18 - 22, 2008, MIDLANT
Public Safety Training Academy instructors provided additional classroom instruction to NASB
Security personnel concerning Handling High Risk Situations and Apprehension, Handcuffing,
Searching, and Transporting. The instructors also conducted practical application and scenario
based training concerning handcuffing and searching.

Current and future police officers attend the 14-week police academy. The recommendation
was implemented in part. Since the incident, NASB hired two DoN police officers, both
attended the academy. The DoN police currently employed at NASB were grandfathered and
not required to attend the academy. This decision was based on the current DoN police officers
having previously attended Phase I and Phase II training. This decision complied with
OPNAVINST 5530.14D, “Navy Physical Security and Law Enforcement Manual,” dated
January 30, 2007.

Training inspection of the NASB Security Office’s training program. Since January 2008,
the NASB Security Directorate training program has been inspected three times. We considered
the first inspection as conducted by the IO during the course of his investigation. The IO found
the NASB training program was adequate and the necessary tools were available and presented
during instruction to have successfully resolved the HN Purcell incident. We concurred. In June
IPO2010E002                                                                                20

2008, MIDLANT conducted a second training inspection with a third inspection completed in
September 2009. While the MIDLANT training policy does not have a “passing” standard, it
does require annual audits.

        In addition to the MIDLANT training audit, the NASB Security Director also conducts
quarterly audits and each Watch Commander conducts their own monthly internal self-audit.
According to the Deputy Security Director, he requires watch commanders and captains to do
monthly audits of the other platoons. He also requires feedback to the watch commander and
FTO on existing shortcomings.

         We also noted MIDLANT began a training scenario called “Verbal Judo.” Verbal Judo
is a tactical communication training course. It teaches use of presence and words to calm
difficult people, who may be under severe emotional or other influences, redirect the behavior of
hostile people, diffuse potentially dangerous situations, perform professionally under all
conditions and achieve the desired outcome. MIDLANT implemented the training for all
subordinate security departments and provided the training to NASB in September 2009.

Discussion

        Our review determined DoN officials initiated a command administrative investigation
despite no regulatory requirement to do so and implemented the IO’s recommendations. We
found that the IO’s recommendations were credible, based on DoD and DoN standards, and
detailed corrective measures to prevent future recurrences.

        We found the IO’s CDI investigation thorough and detailed. We believe the IO identified
the failures of the responding police officers. His recommendations addressed a wide spectrum
of deficiencies requiring action by MIDLANT and NASB officials. We found MIDLANT and
NASB officials endorsed the IO’s recommendations and took corrective action. MIDLANT
conducted training on search and seizure, handcuffing procedures and apprehension versus
arrest.

        On interview the responding police officers informed us training improved since the
incident. Disciplinary action was initiated and/or taken against those involved in the incident to
include the supervisors of the NASB Security department. Review of training curriculum was
conducted and recommendations were made to change how training is presented to police
officers/MAs. Our review of the changes implemented subsequent to the IO’s CDI investigation
should further reduce the risk of a similar incident re-occurring.

4. Did DoN officials properly disclose information in response to
Mr. Purcell’s Freedom of Information Act request?
       We determined DoN officials disclosed information in response to Mr. Purcell’s FOIA
request and all disclosures made to Mr. Purcell complied with Privacy Act and FOIA standards.
IPO2010E002                                                                                 21


Standards

        There are six standards applicable to this objective. The standards include: United States
Code (USC), Section 552, “The Freedom of Information Act,” dated 1996; DoD Directive
5400.11, “DoD FOIA Program,” dated May 14, 2007; DoD Directive 5400.07, “DoD Freedom
of Information Act (FOIA) Program,” January 2, 2008; DoD Directive 5400.7-R, “DoD Freedom
of Information Act Program,” dated September 4, 1998; Secretary of the Navy Instruction
(SECNAVINST) 5211.5E, “Department of the Navy Privacy Program,” dated December 28,
2005; and SECNAVINST 5720.42F, “Department of the Navy Freedom of Information Act
(FOIA) Program,” dated January 6, 1999. (See Appendix A).

Facts

In March 2008, Mr. Purcell submitted a FOIA request to release documents related to his son’s
death. Mr. Purcell requested the following:

        1.		 NAS Brunswick CDO/Quarterdeck Log from 0001 (12:01 AM) on January 27, 2008
             through 2359 (11:59 PM) on January 28, 2008;
        2.		 Any SITREPS concerning Hospitalman Christopher L. Purcell;
        3.		 NAS Brunswick Security/Base police Log or reports concerning Hospitalman
             Christopher L. Purcell;
        4.		 Copies of NAS Brunswick Security/Base Police Standard Operating Procedures with
             regard to the first responders of suicide threats, gestures or to entering residences
             where the occupants are declared to be armed and despondent.

         DoN officials released to Mr. Purcell items (1) through (3) above with the exception of
personal information involving third-party persons. DoN officials cited their FOIA Program
instruction, SECNAVINST 5720.42F, exemption (b)(6) which “denies disclosure of information
in personnel and medical files, as well as similar personal information in other files, that, if
disclosed to a FOIA requester, other than the person about whom the information is about, would
result in a clearly unwarranted invasion of personal privacy.” Further, DoN Privacy Program
instruction, SECNAVINST 5211.5E defines personal information “as information about an
individual that identifies, relates, or is unique to, or describes him or her (e.g., social security
number, age, military rank, civilian grade, marital status, race, salary, home/office numbers, etc.)
or that may be used to distinguish or trace an individual’s identity.” DoN officials did not
provide material in item (4) citing the following explanation, “as the Standard Operating
procedures is exempt from disclosure under the provisions of FOIA exemption (b)(2). This
document meets the two requirements of this exemption because it is predominantly internal and
its disclosure significantly risks circumvention of agency regulations and statute.”

        On April 30, 2008, Mr. Purcell submitted a FOIA request to release the command
investigation conducted by the IO. DoN officials released the command investigation with the
exception of names, personal identifiers, personal information, diplomas, and certificates as it
involved personal information involving third-party individuals. DoN officials cited again
SECNAVINST 5720.42F, exemption (b)(6) and SECNAVINST 5211.5E as explanation for the
IPO2010E002                                                                                                     22

non-disclosure of personal information. DoN officials did not release the opinions and
recommendations of the IO, citing FOIA exemption (b)(5) which “denies disclosure of
documents considered privileged in litigation, primarily under the deliberative process
privilege.” In order to meet the test of this exemption, the record must be both deliberative in
nature, as well as part of a decision-making process. As examples of documents that would be
part of a deliberative process, SECNAVINST 5720.42F identifies “official reports of inspection,
reports of the Inspectors General, audits, investigations, or surveys pertaining to the safety,
security, or the internal management, administration, or operation of one or more DoN activities,
when these records have traditionally been treated by the courts as privileged against disclosure
in litigation.”

        In August 2008, Mr. Purcell complained to the Defense Hotline that his son was in the
“protective custody” of at least six “improperly trained” active duty Navy and DoD security
officers. Mr. Purcell reported the two Petty Officers (Masters at Arms) alleged to be in charge of
the scene, had been referred to a special court martial; however, it was deferred to “Captain’s
Mast.”9 Mr. Purcell complained the disposition of command action against the Masters at Arms
and the DoD security officers were neither accessible to the public nor to the bereaved family.

        On October 6, 2008, Mr. Purcell submitted a third FOIA request for the release of all
transcripts, documents or reports pertaining to the sailors’ courts-martial. DoN officials denied
Mr. Purcell’s request, citing SECNAVINST 5720.42F, exemption (b)(6) and SECNAVINST
5211.5E. DoN officials wrote to the Purcell’s,
           the information Mr. Purcell seeks is not available to the public. The files contain reports,
           records, and other material pertaining to personnel matters in which administrative action,
           including disciplinary action, was taken. FOIA Exemption (b) (6) denies disclosure of
           information in personnel and medical files, as well as similar personal information in other
           files, that, if disclosed to a FOIA requester, other than the person about whom the information is
           about, would result in a clearly unwarranted invasion of personal privacy. All information that
           applies to a particular individual meets the threshold requirement for Exemption 6 protection.
           This means, of course, that this threshold is met if the information applies to any particular,
           identifiable individual. The privacy interest outweighs the public interest therefore, we withheld
           the requested information.

         On November 21, 2008, Mr. Purcell appealed the decision through the Office of the
Judge Advocate General (OTJAG), stating his belief that results of the “mast” could be released
with identifying information redacted and that redacted mast results are routinely published
Navy-wide. On December 30, 2008, OTJAG responded to Mr. Purcell and denied his appeal
stating,
           While it is true that within commands these dispositions are reported, regulations provide that
           the announcement of non-judicial punishment dispositions is a proper exercise of command
           authority and not a release of information under FOIA. These announcements are not made
           available to the public. Based on these laws and regulations, and how the courts have
           interpreted them, OTJAG concluded that releasing additional information would constitute a
           clearly unwarranted invasion of the personal privacy of third persons.




9
    See footnote 7 for a definition of Captain’s Mast.
IPO2010E002                                                                                           23

       OTJAG also confirmed that the maximum punishment at mast for both active duty sailors
would have been 45 days of restriction, 45 days of extra duty, forfeiture of one-half month’s pay
for two months, a rank reduction of one grade, and an oral or written reprimand.

        In February 2009, Mr. Purcell wrote to Representative Mark Steven Kirk (R – IL) and
reiterated his concern DoN officials have not disclosed information to him regarding disciplinary
action taken against the individuals involved in his son’s death.

     On July 20, 2009, Mr. Purcell submitted a FOIA request per President Obama’s FOIA
Memorandum for
       a less redacted version of the Naval Air Station Brunswick JAGMAN investigation report
       surrounding the events that enabled HN Christopher L Purcell to commit suicide on 27 Jan 08.
       Most specifically the nine pages of opinions and recommendations that were redacted.

        DoN officials, in light of the President Obama’s FOIA Memorandum and Attorney
General Holder’s FOIA Guidelines, Creating a “New Era of Open Government,” re-processed
the 9 pages of opinions and recommendations. However, DoN officials withheld names of third-
parties, administrative action and disciplinary action pertaining to personnel, citing again DoN
FOIA exemption (b)(6) and the DoN Privacy Program, SECNAVINST 5211.5E.

Discussion

       We determined DoN officials properly disclosed information in response to Mr. Purcell’s
FOIA request and disclosures made to Mr. Purcell complied with Privacy Act and FOIA
standards.

        We collected and reviewed emails communicated between the Purcell family and DoN
officials and documents provided to the Purcell family per their FOIA request. During our
interview of the Purcell’s, they told us they received what was requested except for reports of
disciplinary action taken against the DoD civilian police officers and active duty MAs involved
in the incident. The Purcell’s stated they asked the MIDLANT RLSO “ . . . a couple of months
ago if he could give me their [the sailors’] current ranks, their rate. . . , he said due to their
privacy, for privacy reasons, he can’t tell me what the ranks are.”

        Throughout the FOIA process for the five Purcell FOIA requests, DoN officials cited the
applicable policy governing release of information and provided the Purcell family with the
appeal process if they disagreed with the DoN’s decision. As indicated, the Purcell family did
appeal the DoN decision not to release the NJP of the two active duty sailors through OTJAG.
OTJAG further informed the Purcell’s that while their appeal was final, they could seek judicial
review of OTJAG’s decision. As of the date of this report, the Purcell’s have not sought a
further review although they have continued their requests through several DoN channels, to
include the Secretary of the Navy.

        The Purcell family initially received a redacted copy of the IO’s investigation which did
not include his opinions and recommendations. After their appeal was denied by OTJAG, the
Purcell submitted a follow-on FOIA request at which time the Purcell family was provided a
IPO2010E002                                                                                                24

second revised redaction of the IO’s investigation with his opinions and recommendations. DoN
officials provided the Purcell family the applicable FOIA exemptions for the portion of
documents not disclosed which was specifically the NJP of the two sailors. DoN officials
maintained the release of this information would be an unnecessary invasion of privacy and
further that such information was not a matter of public record.

         During our review of FOIA and DoN Privacy Program, we noted the provisions should
be read together. FOIA Exemption (b)(6) prohibits release of Privacy Act protected information
in a NJP file (a record pertaining to a personnel matter in which administrative action, including
disciplinary action, may be taken) to a third party (someone not the subject of the NJP).
Paragraph C4.2.2.5.2 of DoD 5400-11-R, “DoD Privacy Act Program,” dated May 8, 2007,
allows release of rank (in this case from somewhere other than the NJP). Either request -- for the
NJP record or rank -- from a third party would be examined first, under 5400.11-R (to determine
if the information is protected by the Privacy Act), then under FOIA IAW DoD 5400.11-R,
“DoD Freedom of Information Act Program,” dated September 4, 1998. The existence of NJP,
the NJP itself, and information from it would not be released per C3.2.1.6.1.2. However, rank
alone could be released under 5400.7-R, paragraph C4.2.2.5.2 from some source other than the
NJP. In our interviews, MIDLANT legal services officers , both FOIA attorneys involved in the
Purcell FOIA requests, told us while rank may be released, in this particular instance with the
two sailors to release their current rank would provide the Purcell family direct knowledge of
NJP, which is not releasable. The MIDLANT RLSO explained,
       Once he [CO, NASB] signs an actual charge sheet that sort of like a Grand Jury Indictment, it
       then becomes part of public record. So the minute that charges are actually referred against a
       sailor then that information can become releasable, okay? If a commanding officer takes non-
       judicial action, so outside of the courtroom, that is based purely on administrative grounds such
       as a non judicial punishment…those things are considered to be non judicial in nature or
       administrative and those things are not releasable.

       We coordinated with the DoD IG Office of General Counsel (OGC) and FOIA Release
Specialist regarding the FOIA and Privacy Act provisions. While the release of military rank
could be allowed, the final decision authority rested with DoN officials. As such, DoN officials
were authorized to withhold any form of personal information which coincided with the NJP of
the two sailors.

V.     CONCLUSIONS
       NCIS concluded the cause of HN Purcell’s death was a gunshot wound to the chest and
the manner of his death was suicide. The NCIS investigation was adequate.

        Although the LOD IO determined HN Purcell’s death was in the line of duty, his
investigation was not conducted in accordance with JAGMAN instructions. The IO did not
recognize information he collected regarding HN Purcell’s behavior was consistent with suicidal
behavior warning signs. We found he erred in his report when he opined “[T]here was no
concrete warning or indication that he would take his own life up until his call . . . the evening of
27 Jan 08.” The IO also failed to investigate command actions taken in response to those
warnings. The behavior included several instances where co-workers informed HN Purcell’s
supervisor about the sale of his personal possessions, depressed mood and excessive drinking.
IPO2010E002                                                                              25

The IO’s LOD investigation showed changes in HN Purcell’s behavior were observed as early as
3 months before HN Purcell’s death. Additionally, the IO did not conduct thorough interviews
to obtain details of events leading up to HN Purcell’s death, and he did not properly document
information he obtained during interviews. Further, the CO, NHCNE and the CO, Navy
Medicine East did not comply with the JAGMAN instructions when they endorsed the
inadequate line of duty investigation report.

        The CDI IO investigated the complete security response including pertinent policies,
procedures, and training requirements as ordered and in compliance with the JAGMAN
instructions.

       DoN officials evaluated whether law enforcement training or qualifications were factors
which contributed to Purcell’s death while in custody. The CDI and our review determined the
NASB training program complied with applicable training standards and NASB provided the
required training to the responding police officers. We determined inadequate training was not a
contributing factor leading to HN Purcell’s death.

       DoN officials implemented corrective measures to prevent recurrences similar to HN
Purcell’s death. The CO, NASB initiated a command administrative investigation despite no
regulatory requirement to do so, and he ensured the IO’s recommendations were implemented.
The IO’s recommendations were based on DoD and DoN standards.

       DoN officials disclosed information in response to Mr. Purcell’s FOIA request and all
disclosures made to Mr. Purcell conformed to Privacy Act and FOIA standards.

VI. RECOMMENDATION
        We recommend Department of Navy Bureau of Medicine correct the deficiencies in the
line of duty investigation, including thoroughly documenting and supporting findings of facts,
investigating the command’s response to suicide warning signs displayed by Hospitalman
Purcell and apparently recognized by others, and making recommendations as originally directed
by the convening authority.


VII. MANAGEMENT COMMENTS AND OUR EVALUATION
        In response to the draft report, we received management comments from the Assistant
Secretary of the Navy, Manpower & Reserve Affairs. The Navy concurred with our
recommendation and told us the Bureau of Medicine and Surgery has directed Navy Medicine
East to reopen and complete the investigation in a manner consistent with the draft report.

       The full-text management comments are included as Appendix C.
IPO2010E002   26
IPO2010E002                                                27


APPENDICES
     Appendix A through Appendix D to the report follow.
IPO2010E002   28
IPO2010E002                                                                                                    29


Appendix A. Standards Related to the DoN response
             to HN Purcell’s death

5 United States Code (USC), Section 552, “The Freedom of Information Act,” dated
1996

This statute deals with the nine exemptions to FOIA which address issues of sensitivity
and personal rights. Three of these exemptions are identified in the body of our report as
explanations for non-disclosure of information:


         (b)(2) “Related solely to the internal personnel rules and practices of an agency.” This
exemption is entirely discretionary and pertains to records containing or constituting statutes, rules,
regulations, orders, manuals, directives, instructions, and security classification guides, the release of
which would allow circumvention of these records thereby substantially hindering the effective
performance of a significant function of the DON. For example: (a) those operating rules, guidelines,
and manuals for DON investigators, inspectors, auditors, or examiners that must remain privileged in
order for the DON activity fulfill a legal requirement; (b) personnel and other administrative matters,
such as examination questions and answers used in training courses or in the determination of the
qualifications of candidates for employment, entrance on duty, advancement, or promotion; (c) computer
software, the release of which would allow circumvention of a statute or DON rules, regulations, orders,
manuals, directives, or instructions. In this situation, the use of the software must be closely examined to
ensure a circumvention possibility exists.

          (b)(5) “Inter-agency or intra-agency memoranda or letters which would not be available by law
to a party other than an agency in litigation with the agency.” For example: internal advice,
recommendations, and subjective evaluations, as contrasted with factual matters that are reflected in
deliberative records pertaining to the decision-making process of an agency, whether within or among
agencies or within or among DON activities. In order to meet the test of this exemption, the record must
be both deliberative in nature, as well as part of a decision-making process. Merely being an internal
record is insufficient basis for withholding under this exemption. Also potentially exempted are records
pertaining to the attorney-client privilege and the attorney work-product privilege. This exemption is
entirely discretionary. The example as used in this report is those portions of official reports of
inspection, reports of the Inspector Generals, audits, investigations, or surveys pertaining to safety,
security, or the internal management, administration, or operation of one or more DON activities, when
these records have traditionally been treated by the courts as privileged against disclosure in litigation.

          (b)(6) “Personnel and medical files and similar files the disclosure of which would constitute a
clearly unwarranted invasion of personal privacy.” Release of information about an individual
contained in a Privacy Act System of records that would constitute a clearly unwarranted invasion of
privacy is prohibited, and could subject the releaser to civil and criminal penalties. If the information
qualifies as exemption (b) (6) information, there is no discretion in its release. An example of other files
containing personal information similar to that contained in personnel and medical files include, as noted
in our report: Files containing reports, records, and other material pertaining to personnel matters in
which administrative action, including disciplinary action, may be taken.
IPO2010E002                                                                                                 30


Department of Defense (DoD) Directive 5400.11, “DoD FOIA Program,” dated May 14,
2007.

        This directive provides guidance on section 552 of Title 5 United States Code (U.S.C.),
the Privacy Act of 1974 and prescribes uniform procedures for implementation of the DoD
Privacy Program. As it pertains to our review, we noted paragraph C4.2.2.5.2 “Military
Members,” which states,
       While it is not possible to identify categorically information that must be released or withheld
       from military personnel records in every instance, the following items of personal information
       regarding individual military members normally may be disclosed without a clearly
       unwarranted invasion of their personal privacy: full name, rank, etc.

DoD Directive 5400.07, “DoD Freedom of Information Act (FOIA) Program,”
January 2, 2008.

       This directive updates policies and responsibilities for implementing the DoD FOIA
Program in accordance with Reference (1) (commonly known as the “FOIA”) and continues to
authorize Reference (4) below to implement the FOIA Program.

DoD Directive 5400.7-R, “DoD Freedom of Information Act Program,” dated
September 4, 1998.

       This directive provides guidance on the implementation of the FOIA. As it pertains to
our report, the directive identifies the nine exemptions. Under paragraph C3.2.1.6, exemption
Number 6. (5 U.S.C. 552 (b)(6)) (Reference (1) above) states,
       “Information in personnel and medical files, as well as similar personal information in other
       files, that, if disclosed to a requester, other than the person about whom the information is
       about, would result in a clearly unwarranted invasion of personal privacy. Release of
       information about an individual contained in a Privacy Act System of records that would
       constitute a clearly unwarranted invasion of privacy is prohibited, and could subject the releaser
       to civil and criminal penalties. If the information qualifies as Exemption 6 information, there is
       no discretion in its release.”

Examples of other files containing personal information similar to that contained in personnel
and medical files include under subheading C3.2.1.6.1.2, “Files containing reports, records, and
other material pertaining to personnel matters in which administrative action, including
disciplinary action, may be taken.”

Department of Defense Instruction (DoDI) 5505.10, “Investigation of Noncombat Deaths of
Active Duty Members of the Armed Forces,” dated January 31, 1996

        This instruction implements policy for the investigation of noncombat deaths of members
of the Armed Forces not medically determined to be from natural causes. Under paragraph 4.1,
the instruction requires “All noncombat deaths of members of the Armed Forces on active duty,
not medically determined to be from natural causes, shall be investigated as potential homicides
until evidence establishes otherwise.”
IPO2010E002                                                                                            31


DoDI 5210.90, “Minimum Training, Certification, and Physical Fitness Standards for
Civilian Police and Security Guards (CP/SGs) in the Department of Defense,” dated
July 9, 2007

This policy provides for the minimum training, certification and physical fitness standards for
civilian police and security guards. Under paragraph 3.1, “DoD CP/SGs are provided
standardized law enforcement and security training that meets the DoD minimum standards in
order to satisfactorily perform their full range of essential duties.” Paragraph 3.2 states,
       There must be a certification program for CP/SGs requiring initial and sustainment training,
       approved physical fitness standards and, at minimum, qualification with assigned weapons. The
       established DoD law enforcement and security training standards (published by the DoD
       Executive Agent, reference section 4.2.2.) serve as minimum training standards for all DoD
       Civilian Police (Series 0083 or equivalent) and Security Guards (Series 0085 or equivalent).

Secretary of the Navy Instruction (SECNAVINST) 5211.5E, “Department of the Navy
Privacy Program,” dated December 28, 2005.

        The purpose of this instruction is to implement references (1) and (2) above to ensure that
all DON military members and civilian/contractor employees are made fully aware of their
rights and responsibilities under the provisions of the Privacy Act (PA); to balance the
government’s need to maintain information with the obligation to protect individuals against
unwarranted invasions of their privacy stemming from the DON’s collection, maintenance, use,
and disclosure of Protected Personal Information (PPI); and to require privacy management
practices and procedures be employed to evaluate privacy risks in publicly accessible DON web
sites and unclassified non-national security information systems. The Instruction further
provides guidance on how to respond to individuals who seek access to information in a PA
system of records that is retrieved by their name and/or personal identifier. For the purpose of
our review, this Instruction defines personal information as “Information about an individual that
identifies, relates, or is unique to, or describes him or her (e.g., SSN, age, military rank, civilian
grade, marital status, race, salary, home/office phone numbers, etc.).”

SECNAVINST 5720.42F, “Department of the Navy Freedom of Information Act
(FOIA) Program,” dated January 6, 1999

       This Instruction issues Department of the Navy (DON) policies and procedures for
implementing references (1) and (2) above and promotes uniformity in the DON Freedom of
Information Act (FOIA) Program. The Instruction outlines the nine exemptions in Reference
(1) and its applicability to the DoN. Those exemptions within this Instruction are mirrored
above and will therefore not be repeated.
IPO2010E002                                                                                               32

SECNAVINST 5430.107, “Mission and Functions of the Naval Criminal Investigative
Service,” dated December 28, 2005

This instruction mandates under paragraph 7b(1)a
       Any non-combat death, on or off naval installations, facilities, vessels, or aircraft, where the
       cause of death cannot be medically attributable to disease or natural causes. Pursuant to
       reference (p), NCIS shall investigate the circumstances until criminal causality can be
       reasonably excluded.

JAG Instruction 5800.7D, “Manual of the Judge Advocate General,” dated June 20,
2007.

This instruction provides the DoN guidance on matters pertaining to the Judge Advocate General
Corps. Chapter II, Administrative Investigations, sets forth principles governing the convening,
conduct, review, and storage of administrative investigations conducted in or by the Department
of the Navy (DON) under the authority of this Manual.

Section 0201 (SCOPE)

        Paragraph d. Coordination with law enforcement investigations. Before conducting a
preliminary inquiry or convening an investigation under this chapter, a commander shall
ascertain, through liaison with the Naval Criminal Investigation Service (NCIS), whether a law
enforcement investigation (military, federal, or civil) is pending in the same matter. If a law
enforcement investigation is pending, the commander should determine whether the law
enforcement investigation will serve to appropriately document the matter without further
investigation under this chapter, see section 0216h(2) and Part G. If the commander determines
that a preliminary inquiry or investigation needs to be conducted in addition to the law
enforcement investigation he shall:

        (1) Coordinate any preliminary inquiry or investigation with the cognizant law
enforcement agency through NCIS, unless NCIS declines, in which case direct liaison may be
made. It is recommended that the commander include written direction that the officials being
tasked to conduct the preliminary inquiry or investigation communicate and coordinate their
efforts with the cognizant law enforcement agency.

        (2) Refer to the Region Commander, his designee, or, in the case of the Marine Corps, to
the general court-martial convening authority (GCMCA), via the chain-of-command, any
conflicts between the law enforcement agency and the commander that cannot be resolved
locally, and suspend action on the contested matter pending resolution. For example, if NCIS, on
behalf of itself or another law enforcement agency, objects to the convening of an investigation
under this chapter, the commander will not convene the investigation until the matter is resolved
by the designated higher authority. Similarly, if an investigation under this chapter is in progress
but NCIS objects to the interview of a specific witness, the witness will not be interviewed until
the matter is resolved by the higher designated authority; although, in this example, other aspects
of the investigation could continue to be worked.
IPO2010E002                                                                                  33

0208 TYPE ONE: COMMAND INVSTIGATIONS

    a. Purpose. A command investigation functions to gather, analyze, and record relevant
information about an incident or event of primary interest to command authorities. Most
investigations will be of this nature. Command investigations may, for example, be used to
inquire into:

        (1) significant property losses (minor property losses in most cases will be adequately
documented through other means), other than damage to or destruction of public quarters since
such incidents are likely to result in claims against or for the Government and, consequently,
require a litigation report investigation;

        (2) incidents in which a member of the naval service, as a result of possible misconduct,
incurs a disease or injury that may result in a permanent disability or a physical inability to
perform duty for a period exceeding 24 hours (distinguished from a period of hospitalization for
evaluation or observation); see Part E;

        (3) deaths of military personnel, or of civilian personnel occurring aboard an activity
under military control, apparently caused by suicide or under other unusual circumstances; see
part F for special considerations in death cases; and

       (4) aircraft incidents, groundings, floodings, fires, and collisions not determined to be
major incidents; see part G for guidance on investigating specific types of incident.

   b. Convening order. The convening order:

       (1) should direct the investigating officer to seek the assistance of a judge advocate;

       (2) may direct the investigating officer to provide opinions or recommendations in
addition to finding facts;

       (3) shall specify when the investigative report is due;

       (4) may not designate parties;

        (5) shall direct, in applicable cases, per section 0202, investigators to coordinate the
command investigation with NCIS/Security personnel who may be conducting criminal
investigations, requiring the report of any conflict to the CA for resolution; and

        (6) should identify potential witnesses and sources of information, and otherwise
provide such direction as the CA determines necessary or proper, including specifying the format
in which the report will be submitted. Normally, a letter report supported by enclosures will be
specified. See Appendix A-2-c for a sample convening order and report.
IPO2010E002                                                                                 34

   c. Method

       (1) A command investigation --
          (a) is convened in writing;
          (b) is conducted by one or more persons in the DON;
          (c) collects evidence by personal interviews, telephone inquiries, or written
correspondence;
          (d) is documented in writing in the manner prescribed by the CA in the convening
order;
          (e) does not involve hearings; and
          (f) may contain sworn statements signed by witnesses.

        (2) A command investigation may assign certain issues, witnesses, or specific matters to
individual members for investigation if more than one investigating officer is appointed, and
hold later meetings to review the information collected for completeness. Additionally, the
investigation may proceed by calling witnesses to present testimony or by obtaining information
through personal interview, correspondence, telephone inquiry, or other means.

    f. Time limitations. The CA will prescribe when the report is due, normally 30 days from the
date of the convening order, except in death cases, however, where the investigation is to be
completed 20 days from the date of the death, or its discovery. The CA may grant extensions as
necessary. Requests and authorizations for extensions need not be in writing but must be
memorialized in the preliminary statement and/or endorsement, as applicable.

0211 CONVENING ORDERS

         a. General form. Convening orders must be in official letter form, addressed from the CA
to the senior member of a board or court or to the investigating officer (s) of a command or
litigation-report investigation. When circumstances warrant, an investigation may be convened
by oral or message order. Signed, written confirmation of oral or message orders must be issued
in each case and included in the investigative report. Convening orders must: recite the specific
purposes of the inquiry and contain explicit instructions about its scope; require findings of fact
(it may, unless a litigation-report investigation is being convened, also require opinions and
recommendations); and contain directions for complying with the Privacy Act, Article 31,
UCMJ, section 0202 (coordinating with law enforcement authorities), and section 0220
(concerning statements about origin of disease or injury), as necessary.

0214 PROOF OF FACTS - STANDARDS OF PROOF

        a. General. An administrative investigation need not be conducted in accordance with the
formal rules of evidence applicable to courts-martial. It should use the most effective methods
for collecting, analyzing, and recording all relevant information and should include in its
investigative report any relevant matter that a reasonable person would consider to be believable
or authentic.
IPO2010E002                                                                                  35

         b. Standards of proof
                  (1) Preponderance of evidence. Except for facts of which a court may take judicial
notice, see M.R.E. 201 and 201a, MCM, an administrative investigation shall arrive at findings
of fact only if supported by a preponderance of the evidence, more likely than not, unless a
higher standard is required, as set forth below.
                  (2) Clear and convincing. This term means that the truth of the facts asserted is
highly probable. To be clear and convincing, evidence must leave no serious or substantial doubt
as to the correctness of the conclusion in the mind of objective persons, after considering all the
facts. It is a higher degree than a preponderance of the evidence standard, but it does not require
proof beyond a reasonable doubt as in criminal cases; see also paragraph 3 of Appendix A-2-a.
Findings of fact relating to the following issues must be established by clear and convincing
evidence:

                        (a) to rebut the presumption that an injury, disease, or death has been
incurred in the line of duty;
                        (b) to rebut the presumption of mental responsibility when the question of
a member is mental responsibility has been raised by the facts or by the nature of the incident;
                        (c) to rebut the presumption that an unauthorized absence period of less
than 24 hours did not materially interfere with the performance of the member is military duties
in line of duty/misconduct cases; or
                        (d) to find that the acts of a deceased service member may have caused
harm or loss of life, including the member’s own, through intentional acts.

               (3) Inferences. An investigation may not speculate on the causes of an incident.
Inferences drawn from evidentiary enclosures or personal observations, however, are
permissible. For example, an investigation may determine, through tangible evidence, the likely
chain of events relative to the subject of investigation. However, it is, in most cases, improper for
an investigative body to theorize about the thought processes of an individual that resulted in
certain courses of conduct.

       c . Evidence

                (1) Safekeeping
                        (a) To the extent consistent with mission requirements, the investigating
officer and the CA will ensure that all evidence is properly preserved and safeguarded until the
investigation is complete and all relevant actions have been taken. Perishable or unstable items
of evidence, such as tire tracks, should be promptly photographed or otherwise preserved,
preferably by trained personnel. Evidence should not be handled by untrained personnel, unless
absolutely necessary to preserve its integrity.
                        (b) Original items with evidentiary value must be retained or adequate
steps taken to ensure their safe storage. Operational commands are encouraged to make
satisfactory storage arrangements with supporting elements ashore in this regard. The CA’s
forwarding endorsement must indicate where the evidence is maintained, what arrangements
have been made for its safekeeping, and report the name and telephone number of the
responsible official.
IPO2010E002                                                                                   36

                        (c) For fungible items, chain-of-custody documents must also be preserved
together with the evidence to which they relate. Consult a judge advocate for assistance. See
OPNAVINST 5580. i (series) for further information; OPNAV Form 5527/11 is the
“Evidence/Property Custody Receipt” form and includes space for chain-of-custody
documentation.
                        (d) Failure to properly safeguard and account for evidence may
result in its inadmissibility in subsequent legal proceedings and therefore prejudice the interests
of the Government.

        (2) Tangible evidence. Whenever the condition, location, or other characteristic of an
item of tangible evidence has probative value, include the item or a photograph, description,
chart, map, or suitable reproduction in the investigative report. Discretion, however, must be
exercised in enclosing graphic photographs since doing so has significant potential for shocking
the sensitivities of relatives and others to whom the investigation may ultimately be released.
When including such materials, place them in a separate envelope marked: “CAUTION,
CONTAINS GRAPHIC PHOTOGRAPHS. VIEWER DISCRETION WARRANTED.”
If an investigator or board member observes an item and gains relevant sense impressions, e.g.,
noise, texture, smells, or any other impression not adequately portrayed by a photograph, chart,
map, or other representation, the impressions should be recorded and included as an enclosure to
the report.

         (3) Documentary evidence. Documentary evidence includes records, logs, documents,
letters, diaries, reports, and statements. Documents should indicate their source and specify any
special restrictions on their disclosure to third parties. Originals or authenticated copies should be
obtained when possible. Completion and forwarding of investigations will not be delayed to
await final reports, originals, or similar documents unless their inclusion is absolutely essential to
the completion of the investigative report. Instead, the unavailability of such items should be
noted and the investigation completed and forwarded. Documents subsequently obtained shall be
forwarded by separate correspondence, via the review chain, with appropriate reference
to the report of investigation.

        (4) Photographs. When photographs are included as part of the investigation, the
following information should be included on the reverse side: the hour and date they were taken;
a brief description of the location or area photographed; the full name and rank or rate of the
photographer; and full names and addresses of persons present when the photographs were taken.
If available, the photographer should be asked to provide details surrounding the taking of the
photographs such as type of camera, distance from object, and so forth. Similar information
should be on a label affixed to any videotape included in the investigation.

        (5) Requests for preservation of aircraft wreckage following a crash. Immediately upon
receipt, all requests for the preservation of aircraft wreckage will be forwarded to NAVAIR (Air
412). If available, the original request with any attachments should be forwarded. Copies of the
forwarding letter and the original request with all attachments shall be forwarded separately to
OJAG (Code 15).
IPO2010E002                                                                                   37

       d. Witnesses and warnings

(1)    Witnesses not suspected of misconduct or improper performance of Duty:

               (a) Command investigations. Ordinarily, witnesses should provide statements in
informal interviews. They may be required, however, to provide recorded testimony under oath.
Probing questions as to “who,” “what,” “where,” “when,” “how,” and “why” should be pursued.
To avoid irrelevant material or omission of important facts, an investigator may assist a witness
in preparing a written statement. When an investigator takes an oral statement, it should be
reduced to writing and signed by the witness or certified by the investigator to be an accurate
summary or verbatim transcript. Care should be taken to ensure that any statement is phrased in
the actual language of the witness.

        (2) Witnesses suspected of an offense, misconduct, or improper performance of duty.
Ordinarily, an investigation should collect relevant information from all other sources before
interviewing persons suspected of an offense, misconduct, or improper performance of duty.
Also, prior liaison with the appropriate staff judge advocate is advised, to ensure investigators
have coordinated with law enforcement officials and will not impede any criminal investigations
into the same incident; see section 0202. Before the interview, military suspects must be advised
of Article 31, UCMJ, warnings; see Appendix A-1-m. Civilian personnel offices should be
consulted about applicable collective bargaining requirements before interviewing civilian
employees suspected of misconduct.

0216 INVESTIGATIVE REPORTS

c. Preliminary statement

        (1) A preliminary statement informs convening and reviewing authorities that all
reasonably available evidence was collected or is forthcoming and each directive of the
convening authority has been met. After setting forth the nature of the investigation, the
preliminary statement details difficulties encountered, extensions requested and granted, limited
participation by any member or advisor, and any other information necessary for a complete
understanding of the case. The itinerary of an investigator or board in obtaining information is
not required.

d. Findings of fact. Findings of fact must be as specific as possible as to times, places, persons,
and events. Make each fact a separate finding, and cite the enclosure supporting each finding.

e. Opinions. Opinions are reasonable evaluations, inferences, or conclusions based on the facts
found. Each opinion must cite the findings of fact upon which it is based. In the case of a
litigation-report investigation, opinions shall not be expressed unless requested by the CA, or
by the cognizant judge advocate.

f. Recommendations. Recommendations depend on the nature of the facts found and opinions
expressed. Recommendations shall not be offered unless requested by the CA, or by the
IPO2010E002                                                                                    38

cognizant judge advocate in the case of a litigation-report investigation. The CA or cognizant
judge advocate may require recommendations in general or limited subject areas.

PART E -- LINE OF DUTY/MISCONDUCT

Section 0220 WHEN LINE OF DUTY/MISCONDUCT DETERMINATIONS ARE
REQUIRED

        a. General. If a member incurs a disease or injury that may result in a permanent
disability or that results in the member’s physical inability to perform duty for a period
exceeding 24 hours, as distinguished from a period of hospitalization for evaluation or
observation, then determining whether the disease or injury was incurred in the line of duty or as
the result of misconduct is very important. An injury or disease suffered by a member of the
Naval service will, however, be presumed to have been incurred in the line of duty and not as a
result of misconduct, unless contrary findings are made.

        b. Death cases. A line of duty determination is required whenever an active duty service
member of the Naval service dies, in order to make decisions concerning eligibility and annuity
calculations under the Uniformed Services Survivor Benefit Program; see Part F, section 0236 of
this Manual.

0225 MENTAL RESPONSIBILITY

       a. General rule. A member may not be held responsible for particular actions and their
foreseeable consequences if, as the result of mental defect or disease, the member was unable to
comprehend the nature of such acts or to control his actions.

        b. Presumption. In the absence of evidence to the contrary, all members are presumed to
be mentally responsible for their acts. If a question of the mental responsibility of a member is
raised by the facts or by the nature of the incident, this presumption ceases and the investigation
must clearly and convincingly establish the member’s mental responsibility before an adverse
determination can be made.

        c. Suicide attempts and suicides. In view of the strong human instinct for self-
preservation, suicide and a bona fide suicide attempt, as distinguished from a suicidal gesture,
creates a strong inference of lack of mental responsibility. Self-inflicted injury, not prompted by
a serious suicidal intent, is at most a suicidal gesture, and such injury, unless lack of mental
responsibility is otherwise shown, is deemed to be incurred as the result of the member’s own
misconduct; see section 0236.

0226 INTOXICATION AN DRUG ABUSE

        a. Intoxication. In order for intoxication alone to be the basis for a misconduct
determination, clear and convincing evidence must show that the member was intoxicated
sufficiently to impair the rational and full exercise of his mental or physical faculties at the time
IPO2010E002                                                                                  39

of the injury and that the impairment was the proximate cause of the injury. Intoxication or
impairment may be produced by alcohol, a drug, or inhalation of fumes, gas, or vapor.

       b. Presumption

        (1) In cases involving alcohol, it may be presumed that when a member has a blood-
alcohol content of .10 percent by volume or greater, the member was sufficiently intoxicated to
impair the rational and full exercise of his mental or physical faculties. This presumption is
rebuttable but, if not rebutted, is of sufficient strength to provide clear and convincing evidence
of the member is impairment. The presumption alone, however, does not establish anything
about the proximate cause of the injury.

        (2) For example, if a sailor is injured while driving with a voluntarily induced blood-
alcohol content of .10 percent by volume or greater, then it may be presumed that the sailor was
impaired due to intoxication to the extent that he could not fully exercise his mental or physical
faculties at the time of the wreck. To find misconduct, however, it still must be shown that the
resulting impairment was the proximate cause of the injury. Thus, if the accident were caused
solely by the wrongdoing of another driver, then the sailor is impairment was not the proximate
cause of the injury.

        (3) Intoxication, as described in section 0226, may also be found when there is no blood-
alcohol content measurement available or when it measures less than .10 percent by volume. In
such cases, all relevant information concerning the member’s condition at the time of the injury
or incident should be considered.

0229 HOW LINE OF DUTY/MISCONDUCT DETERMINATIONS ARE RECORDED

       d. Command investigations. A command must convene an investigation and make
findings concerning misconduct and line of duty when --

       (1) the injury was incurred under circumstances which suggest a finding of “misconduct”
might result. These circumstances include, but are not limited to, all cases in which a qualifying
injury was incurred –

               (a) while the member was using illegal drugs;

                (b) while the member’s blood alcohol content was of .10 percent by volume or
greater. This does not preclude the convening of an investigation if the blood-alcohol percentage
is lower than .10, if the circumstances so indicate.

0232 CHECKLIST FOR LINE OF DUTY/MISCONDUCT INVSTIGATIONS

The following is a checklist of matters that should be included, as applicable, in any report of an
investigation convened to inquire into and make recommendations concerning misconduct and
line of duty under the provisions of this chapter.
IPO2010E002                                                                                       40

        a. Identifying information. The complete name, grade or title, service or occupation, and
station or residence of all persons, military and civilian, killed or injured incident to the event
under investigation; see section 0215 for advice required to be given by the Privacy Act if social
security numbers are requested.

       b. Facts. All facts leading up to and connected with an injury, disease, or death.

        c. Records. Military or civilian police accident reports, pertinent hospitalization or
clinical records, death certificates, autopsy reports, records of coroners’ inquests or medical
examiners i reports, and pathological, histological, and toxicological studies. If originals cannot
be included, then the report shall state where the originals are located and the name and
telephone number of the official responsible for their safekeeping.

        d. Site of incident. Complete information concerning the site and terrain where the
incident in question occurred as well as photographs, videotapes, maps, charts, diagrams, or
other exhibits that may be helpful to a complete understanding of the incident. When
photographs are included as part of the investigation, the following information should be
included on the reverse side: the hour and date they were taken; a brief description of the
location or area photographed; the full name and rank or rate of the photographer; and full names
and addresses of persons present when the photographs were taken. If available, the
photographer should be asked to provide details surrounding the taking of the photographs such
as type of camera, distance from object, and so forth. Similar information should be on a label
affixed to any videotape included in the investigation.

       e. Duty status. Include all pertinent facts with respect to the duty, leave, liberty, or
unauthorized absence status of an individual at the time of the incident.

        f. Reserves. When the person involved is a member of a Reserve component of the Navy
or Marine Corps, complete information as to the member is status in relation to extended active
duty, active duty for training, or inactive duty training, or travel to and from such duty, at the
time of the incident must be stated.

       g. Injuries. Complete information as to the nature and extent of all injuries to Naval
personnel and the place and extent of any hospitalization resulting there from. Include costs
when civilian facilities are used. Also include the amount of “lost” time.

         h. Impairment. Refer to section 0226 regarding applicable presumption. When relevant,
evidence regarding the state of intoxication and the extent of impairment of the physical or
mental faculties of any person involved and connected with the incident. Evidence as to the
individual’s general appearance and behavior, rationality of speech, coordination of muscular
effort, and all other facts, observations, and opinions of others bearing on the question of actual
impairment shall be obtained and recorded. Efforts shall be made to determine the quantity and
nature of the intoxicating agent used and the period of time over which used by the person.
Results of any blood, breath, urine, or tissue tests for the intoxicating agent should also be
obtained and submitted as exhibits.
IPO2010E002                                                                                   41

        i. Mental competence. When material, evidence regarding the mental competence or
impairment of the deceased or injured person. In all cases of suicide or attempted suicide,
evidence bearing on the mental condition of the deceased or injured person shall be obtained.
This will include all available evidence as to social background, actions, and moods immediately
prior to the suicide or the suicide attempt, any troubles that might have motivated the incident,
and any relevant medical or counseling information.

PART F - - SPECIAL CONSIDERATIONS IN DEATH CASES

0233 GENERAL

        a. Special considerations. The circumstances surrounding the death of Naval personnel,
or of civilian personnel at places under military control, may be recorded in a variety of ways,
such as autopsy reports, battlefield reports, and medical reports. Investigations conducted
pursuant to this Manual may also focus on such deaths and may incorporate other official reports
as enclosures. Since reports pertaining to deaths of military members are by law generally
releasable to family members, special considerations prevail in the investigation of death cases.

        b. NCIS notification. NCIS must be notified of any death occurring on a Navy vessel or
Navy/Marine Corps aircraft or installation, except when the cause of death is medically
attributable to disease or natural causes.

        c. Time limitations. The period for completing the administrative investigation
report/record into a death shall not normally exceed 20 days from the date of the death, or its
discovery. For good cause, however, the CA may extend the period. Requests and authorizations
for extensions must be coordinated with the next reviewing authority. The CA and subsequent
reviewers have 20 days to review and endorse the investigation. Noncompliance with these time
requirements must be explained in the endorsement of the deviating command and commented
upon by subsequent endorsers. See MILPERSMAN 1770-060 for the requirement to submit
Status Investigation Reports.

       d. Release of death investigations

         (1) Policy for release to next of kin. As a normal rule, death investigations reports/records
shall not be released to the public until they are final; see section 0219. In the interest of
providing the decedent’s next of kin with timely information, however, it is DON policy that
upon completion of the review by the first flag officer in the chain of command, the reviewer
shall release an advance copy of the investigation, per a request, to the next of kin. The release of
an advance copy to requesting next of kin shall be made unless release would violate law, e. g.,
investigation classified, or the endorser can articulate how release would harm the command’s
mission, or would interfere with an ongoing criminal investigation, or why release should not be
made for good cause. If an endorser does not wish to release an investigation to requesting next
of kin, this decision shall be coordinated with OJAG (Code i3), at 703-604-8200/DSN 664-8200.

       (2) Delivery to next of kin. In providing death investigations to the next of kin,
consideration should be given to the potential impact of the report. Section 0240 directs that
IPO2010E002                                                                                      42

graphic photographs are to be separately wrapped and labeled. Similar procedures should be
employed for autopsy reports and other written materials containing graphic details of injury,
wounds, mutilation, etc. In order to assist those who may still be grieving to understand the
meaning and significance of the report of investigation, releasing authorities should ensure, when
reasonable, hand delivery of the report by someone who can discuss it with the family. Normally,
the Casualty Assistance Calls Officer(s) would make the delivery, but there may be reasons
(technical subject-matter, personal friendships, etc.) for another individual to be assigned this
task.

0234 WHEN INVESTIGATIONS OF DEATH CASES ARE REQUIRED

        A preliminary inquiry, see section 0203, shall, as in any other circumstance potentially
warranting an investigation, be conducted into the death of a member of the Naval service or into
the death of a civilian aboard a place under Naval control. At the conclusion of the preliminary
inquiry, the commander must determine which of the options listed in section 0204 will be
exercised, and report that decision to the next superior in the chain of command; see section
0203h(2). Normally, a command investigation, or a limited investigation, will be appropriate to
inquire into a death case that warrants investigation under the below guidelines. A court or
‘board of inquiry is appropriate in some cases, as discussed below. In deciding on the type and
necessity of investigation, the commander shall consider the following:

a.    No investigation required. An investigation under this Manual will normally not be
conducted if the preliminary inquiry shows that the death:

              (1) was the result of a previously known medical condition and the adequacy of
military medical care is not reasonably in issue; or

                   (2) was the result of enemy action, but see subsection b(4) below.

b.     Investigation required. An investigation under this Manual shall be conducted if the
preliminary inquiry shows:

               (1) the case involves civilian or other non-Naval personnel found dead aboard an
activity under military control, where the death was apparently caused by suicide or other
unusual circumstances;

               (2) the circumstances surrounding the death place the adequacy of military
medical care reasonably at issue;

               (3) the case involves the death of a military member and a probable nexus exists
to Naval service, except where the death is as a result of enemy action, see sections b(4) and (c)
below; or

                   (4) it is unclear if enemy action caused the death, such as in possible “friendly-
fire” incidents.
IPO2010E002                                                                                  43

0238 INDEPENDENT REVIEW

        a. General. To enhance the investigation process, prior to taking action on an
investigative report which calls into question the propriety of a deceased individual’s conduct,
including all apparent suicide cases, the CA may cause the report to be reviewed by an individual
not previously connected with the investigation process and outside the CA’s immediate chain-of
command.

        b. Qualifications of reviewer. The individual selected pursuant to this section to review
the preliminary report should, to the extent feasible, possess such training, experience, and
background that he can critically analyze the salient circumstances surrounding the death as
documented in the report. For example, if a pilot’s death occurred as the result of an aircraft
accident, then the individual selected should be a pilot. If, by way of further example, an enlisted
Marine’s death occurred as the result of an apparent suicide, then the individual selected should
be a senior noncommissioned officer or company commander. In all cases, the individual
selected should have no official or personal interest in the outcome of the investigation.

        c. Duties of reviewer. The individual selected to review the investigative report shall not
act as the deceased’s representative, but should critically analyze the investigative report from
the perspective of the deceased, tempered by the reviewer’s own experience, training, and
education. If, after conducting the review, the reviewer believes comment on the thoroughness
of the investigation or the accuracy of its findings is warranted, then such comments shall be
provided in writing to the CA. The review shall be completed within 10 working days of
delivery of the report to the reviewer.

        d. Action. The CA shall consider such comments as the reviewer may make and take
such action as the CA deems warranted. The reviewer’s comments, if any, shall be appended to
the investigative report.

0239 STANDARD OF PROOF

To find that the acts of a deceased service member may have caused harm or loss of life,
including the member’s own, through intentional acts, findings of fact relating to those issues
must be established by clear and convincing evidence; see Appendix A-2-a for a definition of
that term.

OPNAVINST 5530.14D, “Navy Physical Security and Law Enforcement Manual,”
dated January 30, 2007

The objectives of this instruction are to establish policy for the safety and security of personnel
and property; to provide guidance and set forth standards for military and civilian Navy
personnel performing security and law enforcement duties; and protect Navy forces and assets
from criminal activity.

Under Section 0607 - NSF Apprentice Training Standards, states the following:
IPO2010E002                                                                                                 44

                 a. NSF personnel will satisfactorily complete the training identified under Appendix B
       prior to being assigned security duties. Those skills below that are further annotated with Law
       Enforcement (LE) and Armed Sentry (AS) are only required for personnel performing law
       enforcement sentry duties. Personnel performing unarmed duties, e.g., unarmed vehicle
       inspector, are required to satisfactorily complete the skills training appropriate to their job
       requirements. Personnel required to be armed as a condition of employment are required to
       satisfactorily complete all AS annotated subjects.

                 b. This training may be accomplished via MA “A” School, local or regional security
       training academy, or a combination to meet the training requirements identified in Appendix B.

              d. Apprentice Training Skills: See attached specific skill taskings documented within
       Appendix B.

Under Section 0608, Annual Sustainment Training, the following is prescribed:
               a. NSF personnel will satisfactorily complete sustainment training for the skills listed
       in Appendix B. The frequency of the sustainment training is annotated for each skill using As
       Needed, Daily Guard Mount (DGM), Monthly (M), Quarterly (Q), Semi-annually (SA), or
       Annually (A).

                 c. Local and Regional training academies shall develop training addressing local
       policies and directives for incorporation into the standardized training curriculum.

              d. Sustainment (Phase II) Training Skills:          See attached specific skill taskings
       documented within Appendix B.

                 e. Failure to satisfactorily complete sustainment training by the anniversary of the
       initial or previous sustainment training will result in removal of the individual from assigned
       duties until such time that the training can be satisfactorily completed. Each standardized plan
       of instruction will contain the initial training, testing, remediation, and point of failure
       information.

OPNAVINST 5580.1A Navy Law Enforcement Manual, July 26, 2000

This regulation details procedures, provides guidance, and sets forth standards for military and
civilian Navy personnel performing law enforcement duties; this instruction is not intended to
create any rights, substantive or procedural; it does not place limits on the lawful prerogatives of
Navy law enforcement personnel.

Under Section 0109. Training.
                a. The training organization, Phase I, Phase II and in-service training are specified
       under reference (b). This training is mandatory and personnel will not be authorized to perform
       law enforcement duties without its satisfactory completion. Roll call is also a good forum for
       updating policy or conducting awareness training.

                b. To ensure adequacy of training, each security department should have an active field
       training officer program. In addition, security officers will review training records quarterly to
       ensure all personnel have received required training and immediately schedule personnel who
       are delinquent.
IPO2010E002                                                                                                  45


OPNAVINST 5530.14D, “Navy Physical Security and Law Enforcement Manual,”
dated January 30, 2007

This regulation issues policy, identify responsibilities and set forth standards for security and law
enforcement operations within the Navy. This instruction is not intended to create any rights,
substantive or procedural; it does not place limits on the lawful prerogatives of Navy security
and law enforcement personnel. Under paragraph 607(a), NSF Apprentice Training Standards
 it states, “NSF personnel will satisfactorily complete the training identified prior to being
assigned security duties.”

Under paragraph 607(b), it states, “This training may be accomplished via MA “A” School, local
or regional security training academy, or a combination….”

Commander Navy Region Mid-Atlantic (COMNAVREG MIDLANT) 5500.2,
“Regional Physical Security Standard Operating Procedures,” undated

This regulation identifies standard operating procedures for the MIDLANT Physical Security
Departments. Under Section 9-1 Mission, paragraph 1, it states the training department mission
is “To provide basic Force Protection and advanced Law Enforcement and Phase II training,
maintain and enhance the current level of security training to personnel of the Region’s Naval
Security Force (NSF).”

NCIS 3, Criminal Investigations, Chapter 30.

This chapter provides policy and procedures for investigating deaths. Under paragraph 30-5.6
       Death investigations involving on-base incidents of reported suicide and other self-inflicted
       incidents (e.g., autoerotic deaths) will be pursued with the same intensity and coverage as
       known homicides following the appropriate provisions of sections 30-6., 30-27.6. and 30-27.9.
       Telephonic contact is encouraged between the case agent and the NCISHQ review desk, as such
       investigations must be reviewed in detail by NCISHQ for potential briefings to the Department
       of Defense Inspector General (DoD/IG), congressional committees, and families of the
       deceased.

Under paragraph 30-6.2
       Because staging the death of another person is possible (i.e., making a situation appear to be an
       accident or suicide), homicide should not be ruled out by an investigator as a consideration,
       regardless of how obvious it appears that the death scene may point to an alternative manner of
       death. All medically unattended deaths are to be presumed homicides until investigation proves
       otherwise, thus preventing destruction or loss of valuable evidence at the scene and loss of
       important information from witnesses. All logical leads developed and pertaining to any
       manner of death should be pursued and documented completely. Any evidence of foul play
       must be further investigated and resolved if possible; contradictory information should be
       clarified before the close of the investigation. To the extent possible, all discrepancies received
       from persons interviewed should be resolved through re-interviewing and other appropriate
       means, since a single interview with persons having pertinent knowledge of the death may not
       be sufficient and complete. For example, if two people discover a body at the same time yet the
       details of the discovery differ considerably upon initial interviews with each of the individuals,
       re-interviews are necessary to resolve major discrepancies in the given accounts. The process
IPO2010E002                                                                                              46

       of re-interview and thorough documentation minimizes doubt regarding the investigative result,
       as well as the cause and manner of death.

Under paragraph 30-13
       SUICIDE. SECNAVINST 5430.107 series directs that a NCIS investigation will be conducted
       regarding the unattended death of military personnel, dependents, or DON employees occurring
       on a Navy or Marine Corps installation where criminal causality cannot be firmly excluded. In
       all instances of unattended death on a Navy or Marine Corps installation or vessel, the
       possibility of foul play always exists. Therefore, NCIS should conduct an investigation even in
       those instances where the death appears from the outset to have resulted from suicide.

NASB Standard Operating Procedures (SOP), 2005

These procedures supplement COMNAVREG MIDLANT and OPNAV policies. This SOP
provides training requirements for civilian and military personnel who are members of the
NASB Security Department. We reviewed the SOP and provided the applicable tasks pertinent
to our review.

SOP – T-001 (Training Requirements) - The new hires will attend the Security Reaction Force-
Basic (SRF-B) academy.

               b. In-service training

1) Phase II
               a) Minimum maintenance of training standards is essential to enable security force
       personnel to perform their duties.

               b) Phase II training will be conducted annually for all security force personnel in
       accordance with ref (b). Phase II training is mandatory and personnel will not be authorized to
       perform law enforcement duties without its satisfactory completion.

               c) Periodic review of instructional material and instructor’s presentations shall be
       conducted to determine how effectively they meet security force training requirements.

SOP – T- 2 (Training Administration) - Training jackets will be created for all members and
employees of NASB Police Precinct.

B. Required monthly reports and schedules
               1) Monthly training schedule. The monthly training schedule will be drafted by the
       Training Officer and forwarded to the chain of command by the 15th of the month. Upon
       approval the training schedule will be posted on the training board located in the training
       classroom.

               2) Job Qualification Requirement (JQR) delinquency report. The JQR delinquency
       report will be drafted by the section FTO and forwarded to the Training Officer and the
       Operations Commander by the first working day of the month.
IPO2010E002                                                                                              47

              3) Monthly section training reports. Section training reports will be completed by the
     section FTO and forwarded to the Training Officer and the Operations Commander by the first
     working day of the month.

              4) Regional monthly report. Information for the regional report is due to the Leading
     Chief Petty Officer (LCPO) by the first working day of the month. The Training Officer is
     responsible to provide the information.

               5) Quarterly training record verification. The training record report will be completed
     by the Field Training Officer after all records have been reviewed for the quarter. The report
     will list any delinquent qualifications/record entries. The report will be forwarded to the
     Training Officer by the first working day of the month.

             6) Yearly training schedule. The yearly training schedule will be completed and
     forwarded annually to the chain of command no later than 01 July. The plan will include the
     following: SRF-B academies, phase II, drills and any other training dictated by the chain of
     command.
IPO2010E002   48
IPO2010E002                                                                            49


Appendix B. Phase I Skills & Phase II Police
Officer/Master-at-Arms Sustainment Training
Apprentice Training (Phase I) Skills:

(1) Administration
      (a) Overview/Orientation.
      (b) Security Unit Duties and Functions.
      (c) Standards of Conduct.
      (d) Forms and Reports/Report Writing.
      (e) Area Familiarization/On-Job-Training/as appropriate to the job assignment.

(2) Antiterrorism
       (a) AT Level I.
       (b) Vehicle and Personnel Movement Control.
       (c) Threat Spectrum
       (d) Force Protection Conditions and Measures.
       (e) Physical Security Safeguards.

(3) Legal Subjects
       (a) Jurisdiction and Authority.
       (b) Search and Seizure.
       (c) Uniform Code of Military Justice.
       (d) Self-Incrimination/Admissions and Confessions.
       (e) Apprehension versus Arrest.
       (f) Legal Testimony: Captain’s Mast/Courts Martial.

(4) Traffic Laws and Enforcement
        (a) Traffic Control.
        (b) Random Vehicle Inspection.

(5) Patrol
        (a) Crime Scenes/Preservation of Evidence
        (b) Watch Standing Procedures 

                 -1 . Sentry, Entry Control Point. 

                 -2. Vehicle/Pleasure Craft/Other Vessel Inspection. 

                 -3 . Situational Awareness 

                 -4. Incident Reporting        

                 -5 . Interpersonal Skills.

                 -6 . Information Gathering. 

        (c) Tactical Communications.
        (d) Illegal Drug Identification.
        (e) Mobile Patrol Procedures, Vehicle & Boat .
        (f) Vehicle Stops/Search of Vehicles.
IPO2010E002                                                                               50

(6) Other Security Events
       (a) Crowd Control
       (b) Preplanned Response Procedures (Bomb Threat, Small Boat Attack, Suspicious
Package, etc.).

(7) Professional Skills
         (a) Weapons Qualifications.
         (b) Use of Force Continuum.
         (c) Physical Control Techniques.
         (d) Approved Non-lethal weapons training as stipulated and limited in the following
paragraph, including, but not limited to baton, defensive sprays (contamination required for
initial training) and handcuffs/flex cuffs.
         (e) Cardiopulmonary Resuscitation (CPR).
         (f) First Aid (First Responder).
         (g) Emergency Vehicle Operations.
         (h) Physical Fitness.

Annual Sustainment (Phase II) Training - NSF personnel will satisfactorily complete sustainment
training for the skills listed below. The frequency of the sustainment training is annotated for
each skill using As Needed, Daily Guard Mount (DGM), Monthly (M), Quarterly (Q), Semi-
annually (SA), or Annually (A). Personnel performing unarmed sentry duties, e.g., unarmed
vehicle inspector, are required to satisfactorily complete sustainment skills appropriate to their
job requirements.

(1) Administration
      (a) Changes in SOP, Post Orders, etc (as needed).
      (b) Standards of Conduct (A).

(2) AT Level I

(3) Legal Subjects
       (a) Jurisdiction and Authority (A).
       (b) Search and Seizure (A).
       (c) Uniform Code of Military Justice (A).
       (d) Self-Incrimination/Admissions and Confessions
       (e) Apprehension versus Arrest (A)
       (f) Legal Testimony: Captain’s Mast/Courts Martial (as needed).

(4) Traffic Laws and Enforcement
        (a) Traffic Control (A).
        (b) Random Vehicle Inspection (A).

(5) Patrol
        (a) Crime Scenes/Preservation of Evidence (SA).
        (b) Watch Standing Procedures (DGM). 

               -1. Sentry, Entry Control Point. 

IPO2010E002                                                                               51

               -2. Vehicle/Pleasure Craft/Other Vessel Inspection. 

               -3. Situational Awareness.        

               -4 . Incident Reporting.       

               -5. Interpersonal Skills.

               -6. Information Gathering.        

       (c) Tactical Communications (A).
       (d) Drugs of Abuse Identification (A).
       (e) Mobile Patrol Procedures, Vehicle & Boat (Q).
       (f) Vehicle Stops/Search of Vehicles (Q).

(6) Other Security Events
       (a) Crowd Control (As needed /A).
       (b) Preplanned Response Procedures (Bomb Threat, Small Boat Attack, Suspicious
Package, etc.) (M).

(7) Professional Skills
         (a) Weapons Qualifications (SA).
         (b) Use of Force Continuum (DGM).
         (c) Physical Control Techniques (Q).
         (d) Approved Non-lethal weapons training as stipulated and limited in the following
paragraph, including, but not limited to baton, defensive sprays (contamination required for
initial training) and handcuffs/flex cuffs (SA).
         (e) CPR (A).
         (f) First Aid (First Responder) (A).
         (g) Emergency Vehicle Operations (A).
         (h) Physical Fitness
IPO2010E002   52
IPO2010E002                       53


Appendix C. Management Comments
IPO2010E002   54
IPO2010E002                                                                                          55


Assistant Secretary of the Navy, Manpower & Reserve Affairs Comments


                                    DEPARTMENT OF THE NAVY
                                   OFFICE OF THE ASS IS TANT SECRETARY
                                    ( MAN PO WER AND RESERVE AFFAIR S)
                                            1000 NA VY PENTAGON
                                        WASHINGTON, D.C . 20350 · 1 000



                                                                                       5830
                                                                                       24Sep 10

        From: Assistant Secretary of the Navy, Manpower & Reserve Affairs
        To:   Department of Defense Inspector General

        Subj:   REVIEW OF MATTERS RELATED TO THE DEATH OF HOSPITALMAN
                (HN) CHRISTOPHER PURCELL, USN (PROJECT NO. 2009C002)

        Ref:    (a) DODlG memo of 6 Aug 10

        I. Per reference (a), the draft report has been reviewed. The Navy concurs with the
        findings and recommendations of the draft report as it pertains to the deficiencies in the
        line of duty investigation of HN Purcell. The Bureau of Medicine and Surgery
        (BUM ED) has directed Navy Medicine East to reopen and complete the investigation in a
        manner consistent with the draft report. The revised investigation is due to BUMED no
        later than 20 October 2010. BUMED will review and respond by 29 October 201 O.




        Copy to: Naval Inspector General
IPO2010E002   56
IPO2010E002                                                   57


Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
General Counsel, Department of Defense

Department of the Navy
Secretary of the Navy

Naval Inspector General* 

Commander, Navy Region Mid-Atlantic* 

Chief, Navy Bureau of Medicine and Surgery*

Director, Naval Criminal Investigative Service*

Commanding Officer, Naval Air Station Brunswick 

Commanding Officer, Navy Medicine East 

Commanding Officer, Naval Health Clinic New England


Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




*Recipient of draft report
· , ..
